OFFICE OF INSPECTOR GENERAL
SEMIANNUAL REPORT TO THE CONGRESS
          April 1 – September 30, 2008
      OFFICE OF INSPECTOR GENERAL
SEMIANNUAL REPORT TO THE CONGRESS
         April 1 – September 30, 2008
                                Inspector General

                 HOTLINE
   OIG’s Hotline makes it easy to report allegations of fraud,
   waste, abuse, mismanagement or misconduct in programs
   and operations of the USAID, USADF, IAF, and MCC.
   Employees, contractors, program participants and the
   general public may report allegations directly by e-mail,
   telephone, or mail to:

   Phone	 1-202-712-1023
   		     1-800-230-6539


   E-mail	 ig.hotline@usaid.gov


   Mail	                 USAID OIG HOTLINE
   		                    P.O. Box 657
   		                    Washington, DC 20044-0657

U.S. Agency for International Development
1300 Pennsylvania Avenue, N.W.
Washington, D.C. 20523
www.usaid.gov
CONTENTS
Message from the Inspector General . .................................................................................. 3

Semiannual Report to the Congress for: .............................................................................. 5
     United States Agency for International Development (USAID)
     United States African Development Foundation (USADF)
     Inter-American Foundation (IAF)

Summary of Results for USAID, USADF, and IAF ............................................................. 7
     Appendix I:
          Reporting Requirements for USAID, USADF, and IAF ........................................ 29

Semiannual Report to the Congress for Millennium Challenge Corporation (MCC) ........ 63

Summary of Results for MCC . ......................................................................................... 65
     Appendix II:
          Reporting Requirements for MCC . ...................................................................... 75




                                                                                                         April 1 – September 30, 2008 1
2 OFFICE OF INSPECTOR GENERAL SEMIANNUAL REPORT TO THE CONGRESS
MESSAGE FROM THE INSPECTOR GENERAL
I am pleased to present the Semiannual Report to the Congress (SARC) for the 6-month period ending September
30, 2008. This report is issued in accordance with the requirements of the Inspector General Act of 1978, as
amended, and specifically addresses our oversight activities and accomplishments for the U.S. Agency for Interna-
tional Development (USAID), the United States African Development Foundation (USADF), the Inter-American
Foundation (IAF), and the Millennium Challenge Corporation (MCC).

This SARC is the first to include Office of Inspector General’s (OIG) work related to all of the foreign assistance
agencies for which OIG has oversight responsibility. Previously, MCC activities were reported separately. We have
organized this report around OIG’s three strategic goals, which are aligned with USAID and MCC’s strategic
goals, and the results, reported under each specific goal, cite examples of OIG assistance to the four agencies to
improve the economy, effectiveness, and efficiency of their programs and operations as well as to reduce the agen-
cies’ exposure to fraud, waste, and abuse.

Overall, we issued 261 audits and closed 36 investigations over the past 6 months. As you will see in the report,
we have focused on USAID’s highest priority programs in Iraq and Afghanistan as well as Presidential health ini-
tiatives such as HIV/AIDS. U.S. foreign assistance programs are essential to the administration’s transformational
diplomacy goals in the advancement of sustainable development and global interests. Our auditors and investiga-
tors continue to work effectively in difficult and dangerous conditions around the world, demonstrating our com-
mitment to improving these programs.

In addition to working toward improving USAID programs and operations, we have a responsibility to prevent
fraud, waste, and abuse in foreign assistance programs—problems of increasing importance in today’s environ-
ment of limited Federal resources. Our investigators have worked diligently to ensure that appropriate action is
taken against those who would illegally divert U.S. Government funds.

Within OIG, we continue working to improve our own programs and initiatives by continually reexamining our
strategies and goals and by taking advantage of technologies that enable us to better implement programs and
respond to our stakeholders.

We look forward to working with Congress and our partners and stakeholders to continue to improve the ef-
ficiency and effectiveness of U.S. foreign assistance programs.

	Donald A. Gambatesa
  Inspector General




                                                                                                 April 1 – September 30, 2008 3
4 OFFICE OF INSPECTOR GENERAL SEMIANNUAL REPORT TO THE CONGRESS
   SEMIANNUAL REPORT TO THE CONGRESS
                   for
U.S. AGENCY FOR INTERNATIONAL DEVELOPMENT,
  U.S. AFRICAN DEVELOPMENT FOUNDATION,
                   and
       INTER-AMERICAN FOUNDATION




                                  April 1 – September 30, 2008 5
6 OFFICE OF INSPECTOR GENERAL SEMIANNUAL REPORT TO THE CONGRESS
                           SUMMARY OF RESULTS

OIG’s purpose is to ensure that its assigned                 Strategic Goal 2: Protect U.S. foreign assistance
organizations enhance the integrity, efficiency, and         programs and operations from fraud, waste, and
effectiveness of their work and achieve the greatest         abuse
possible results. To assist USAID, USADF, and
IAF in doing so, OIG evaluates the organizations’            OIG focused on audit and investigative work, as well
programs and operations and provides oversight and           as training and outreach, addressing vulnerabilities and
information. Using three strategic goals, shown below, as    integrity concerns that place programs at risk. OIG
a framework, OIG planned and executed work intended          accomplishments included the following:
to help these organizations in addressing their challenges   ■■   USAID contractor and subcontractors indicted for
and priorities.                                                   contract fraud.
Highlights of OIG’s results related to USAID, USADF,         ■■   USAID contractor ordered to pay $7.48 million in
and IAF for this reporting period follow:                         bills for collection.
                                                             ■■   Employee of a USAID contractor pleads guilty to
Strategic Goal 1: Strengthen the economy,                         bank fraud.
effectiveness, and efficiency of U.S. foreign
assistance programs and operations                           Strategic Goal 3: Continually improve OIG
                                                             functions and operations
OIG focused on USAID audit work that involved
economic programs, financial management systems, the         An automated helpdesk system was implemented to
President’s Emergency Plan for AIDS Relief (PEPFAR),         track requests for administrative services and other
and the President’s Malaria Initiative (PMI). OIG            support requirements.
accomplishments and findings included the following:
                                                             OIG established a performance plan for this reporting
■■   Afghanistan’s small and medium enterprise               period that aligns with these goals and the overall U.S.
     development activity project results were overstated.   foreign assistance framework and priorities as indentified
■■   USAID missions in Cambodia, India, and Russia           in the U.S. Department of State and USAID Strategic
     achieved planned results in fiscal year 2006 in         Plan for Fiscal Years 2007–2012.
     their PEPFAR grants, cooperative agreements, and
     contracts.                                              Additional details of OIG’s results related to USAID,
                                                             USADF, and IAF for this reporting are shown in the
■■   PMI evidenced progress in Uganda, but significant       following charts and activity summaries:
     issues exist.




                                                                                               April 1 – September 30, 2008 7
         Audits Conducted for USAID, USADF, and IAF as of September 30, 2008

                                                                  NUMBER OF                 MONETARY
                         TYPE OF REPORT
                                                                   REPORTS             RECOMMENDATIONS ($)*

         FINANCIAL AUDITS

            USAID PROGRAMS AND OPERATIONS                                 0                           0

            FOUNDATIONS’ PROGRAMS AND OPERATIONS                          0                           0

            U.S.-BASED CONTRACTORS                                       39                   11,702,874

            U.S.-BASED GRANTEES                                          19                    4,858,604

                QUALITY CONTROL REVIEWS                                   5                           0

            FOREIGN-BASED ORGANIZATIONS                                113                    32,182,402

                QUALITY CONTROL REVIEWS                                  21                           0

            ENTERPRISE FUNDS                                             11                           0

         PERFORMANCE AUDITS

            USAID ECONOMY AND EFFICIENCY                                 30                  162,367,100

            FOUNDATIONS’ ECONOMY AND EFFICIENCY                           4                    1,665,727

         OTHER                                                            2                           0

                               TOTAL                                   244                 212,776,707

                                       * Monetary recommendations include questioned costs and funds put to better use.




8 OFFICE OF INSPECTOR GENERAL SEMIANNUAL REPORT TO THE CONGRESS
Investigative Activity for USAID as of September 30, 2008

 WORKLOAD                                      CIVIL
  CASES OPENED                     42          REFERRALS                                     0
  CASES CLOSED                     36          DECLINATIONS                                  0
                                               COMPLAINTS                                    0
                                               JUDGMENTS / RECOVERIES                        0
                                               SETTLEMENTS                                   0
  CRIMINAL                                     ADMINISTRATIVE
  REFERRALS                        3           REPRIMANDS / DEMOTIONS                        0
  DECLINATIONS                     3           PERSONNEL SUSPENSIONS                         0
  ARRESTS                          1           RESIGNATIONS / TERMINATIONS                   1
  INDICTMENTS                      5           OTHER ADMINISTRATIVE ACTIONS                  1
  CONVICTIONS                      0           RECOVERIES                                    5
  SENTENCING                       1           PROCUREMENT
  FINES                            1           SUSPENSIONS / DEBARMENTS                      1
  RESTITUTIONS                     1           SAVINGS                                       1
                                               SYSTEMIC CHANGES                              4




Investigative Recoveries for USAID as of September 30, 2008

 JUDICIAL RECOVERIES                                                $193,436.00
 ADMINISTRATIVE RECOVERIES                                         $8,611,082.00
 SAVINGS                                                            $500,000.00

 TOTAL INVESTIGATIVE SAVINGS / RECOVERIES                         $9,304,518.00




                                                                                   April 1 – September 30, 2008 9
      Fraud Awareness Briefings Conducted for USAID as of September 30, 2008

       Month      Location                    Sessions     Attendees     Professional Affiliation

                  San Salvador, El Salvador      1             18        USAID Contractors
          APR
                  Washington, DC                 1             31        USAID Personnel

                  Washington, DC                 7            135        USAID Personnel
                  Almaty, Kazakhstan             2             84        USAID Personnel
          MAY
                  Almaty, Kazakhstan             3             99        USAID Contractors
                  Bishkek, Kyrgyzstan            3             64        USAID Contractors

                  Khartoum, Sudan                1             35        USAID Personnel
                  Baghdad, Iraq                  1             22        USAID Contractors
          JUN     Juba, Sudan                    1             44        USAID Personnel
                  Mexico City, Mexico            2             38        USAID Contractors
                  Mombasa, Kenya                 1            108        USAID Personnel

          JUL     Washington, DC                 2             62        USAID Personnel

                  Kabul, Afghanistan             3            161        USAID Personnel
                  Lima, Peru                     4             88        USAID Contractors
         AUG      Lima, Peru                     2             82        USAID Personnel
                  Kampala, Uganda                1             13        USAID Personnel
                  Kathmandu, Nepal              10            212        USAID Personnel

          SEP     Baghdad, Iraq                  1             29        USAID Contractors

                           TOTAL                 46           1,325




10 OFFICE OF INSPECTOR GENERAL SEMIANNUAL REPORT TO THE CONGRESS
               U.S. AGENCY FOR
         INTERNATIONAL DEVELOPMENT

Strategic Goal 1:
S trengthen the economy, effectiveness, and efficiency
 of U.S. foreign assistance programs and operations

USAID/Iraq Could Increase the Positive Impact              Although USAID/Iraq complied with provisions
of the Marla Ruzicka Iraqi War Victims Fund                contained in public laws to ensure that funds
                                                           appropriated for the Marla Fund were used as intended,
Since 2003, USAID/Iraq has helped Iraqi civilians          USAID/Iraq could increase the positive impact of the
injured by U.S. and Coalition forces to piece their        Marla Fund in some areas.
lives and livelihoods back together through funding
provided by a program known as the Marla Ruzicka           OIG recommended that USAID/Iraq reconsider its
Iraqi War Victims Fund (the Marla Fund). According         practice of limiting Marla Fund beneficiaries to Iraqi
to USAID/Iraq, more than 350,000 Iraqis have               civilians who suffered losses caused solely by U.S. and
benefited directly, and 1.5 million have benefited         Coalition forces and make appropriate changes as
indirectly, from more than 630 completed projects.         warranted; provide guidance to its partners that encourages
To date, USAID/Iraq has received approximately             them to focus future projects on families in need rather
$40 million in U.S. appropriations to assist Iraqi         than community infrastructure projects; determine
war victims. Projects have covered costs of providing      whether funds should be reallocated to implementing
health care; income generation; and the rehabilitation     partners in regions where those funds could be better used;
of destroyed homes, schools, and clinics for civilian      and develop a plan to address the future sustainability of
victims of the war in Iraq. Many of the projects have      assistance to civilian Iraqi war victims.
helped establish sustainable incomes for families, while
                                                           Management decisions have been reached on all four
others have provided prosthetics and medical treatment.
                                                           recommendations.
OIG conducted an audit to determine whether
                                                           (Audit Report No. E-267-08-002-P)
USAID/Iraq complied with provisions contained in
public laws to help ensure that funds appropriated for
the Marla Fund were used as intended.

                                                                                            April 1 – September 30, 2008 11
     USAID/Iraq’s Monitoring and Evaluation                      USAID/Iraq’s Community Action Program II
     Performance Program Is Operating as Intended                Project Activities Were Taking Place but
     but Improvements Could Be Made                              Assessing Results Was Problematic
     The difficulty of operating a USAID mission in an           USAID/Iraq’s $150 million Community Action
     active war zone has hampered USAID officials’ ability       Program II is a 2-year program designed to promote
     to adequately monitor program activities in the field.      the development of stable communities by assisting in
     To address this constraint, USAID/Iraq awarded              identifying and prioritizing problems, managing conflict
     a $13.4 million, 3-year contract to carry out its           constructively, meeting challenges with local and external
     monitoring and evaluation program.                          resources, and developing democratic principles. Typical
                                                                 projects consisted of improving community schools,
     OIG conducted an audit to determine whether                 health, roads and bridges, water and sewerage, and
     USAID/Iraq’s monitoring and evaluation program is           business and economic development.
     producing reports that are timely, relevant, and useful
     for performance management and whether USAID/Iraq           OIG’s audit determined that project activities were taking
     is using those results to manage its portfolio.             place successfully, but they lacked a mechanism to help
                                                                 program managers and other stakeholders assess the
     The contractor’s monitoring and evaluation reports were     program’s progress and make necessary adjustments.
     generally timely, relevant, and useful for performance
     management. However, the contractor could improve           Specifically, USAID/Iraq did not ensure that baseline
     the reliability of its monitoring reports by coordinating   values for performance indicators designed to measure
     with the U.S. military to spot-check performance of its     progress were determined at the beginning of the program.
     field monitors and by monitoring high-risk activities       Targets for performance indicators also varied, and OIG
     more frequently. USAID/Iraq was generally using the         could not determine which targets were in effect during
     results of its monitoring and evaluation program to         the time of the audit. In addition, the four implementing
     manage its portfolio, but improvements could be made.       partners did not always have uniform guidelines for
                                                                 processing performance results data. Consequently, many
     OIG made six recommendations, including obtaining           of the reported results were inaccurate.
     information from the U.S. military to assist in verifying
     the accuracy of field monitoring reports, increasing the    OIG made four recommendations, including developing
     frequency of monitoring of activities that are highly       procedures to ensure that changes to performance
     vulnerable to fraud and abuse, and documenting              indicators and targets are properly documented and
     responses to findings and recommendations contained         assessing the quality of data to ensure that system flaws are
     in monitoring reports.                                      identified and corrected.

     Management decisions have been reached on all six           Management decisions have been reached on all four
     recommendations.                                            recommendations.

     (Audit Report No. E-267-08-004-P)                           (Report No. E-267-08-005-P)




12 OFFICE OF INSPECTOR GENERAL SEMIANNUAL REPORT TO THE CONGRESS
                                                                            Photograph of a USAID/Iraq armored vehicle with
                                                                            shrapnel damage in Basrah, Iraq. (Photograph by Regional
                                                                            Inspector General (RIG)/Iraq; Baghdad, Iraq)




Management of USAID/Iraq’s Official Vehicle Fleet               Too Early to Determine Success of USAID/Iraq’s
Could Be Improved                                               Agribusiness Program
Since 2003, the mission has had responsibility for 188          Revitalizing Iraqi agribusiness is an important element
official and program vehicles, many of which were               in creating a stable, prosperous, and democratic Iraq.
armored, with a total acquisition value of approximately        In May 2007, USAID awarded a 3-year, $209 million
$25.1 million. At the conclusion of the audit, the mission      contract to implement the agribusiness program. This
reduced its inventory to 89 vehicles. The majority of           program was designed to provide agricultural and
vehicles were in Baghdad, with some vehicles located            business development services and to promote economic
elsewhere throughout Iraq.                                      diversification and job generation.

OIG conducted an audit to determine whether its                 OIG’s audit found that 2 of 12 agribusiness activities
official vehicle fleet was managed in accordance with           reviewed were not achieving intended results, and
USAID policies.                                                 the success of the remaining 10 activities could not
                                                                be determined because of delays in the startup of the
Although USAID/Iraq managed many aspects of its                 program. The two activities not achieving results were
official vehicle fleet in accordance with USAID policies,       the date production and the masters degree programs.
the mission did not always maintain vehicle records,            Specifically, OIG determined that the targets set for
dispose of excess vehicles, report missing vehicles, use        these activities were too ambitious and not likely to
authorized armoring technicians, train drivers, or equip        be achieved. Nevertheless, the program has produced
vehicles with operable security radios.                         interim reports indicating that some program activities
OIG made seven recommendations, including                       are making early progress toward achieving their targets.
maintaining vehicle records for all mission-controlled          OIG made eight recommendations, including
vehicles, disposing of excess vehicles with a total estimated   establishing and/or revising performance indicators,
value of about $2.2 million, and reporting to U.S. security     improving the utility of financial reports, and confirming
officials all armored vehicles that could not be located.       that the required provision to prevent financing of
Management decisions have been reached on all seven             terrorism is included in all subawards. Additionally, OIG
recommendations, and final action has been taken on four.       recommended that USAID/Iraq reassess the feasibility
                                                                of sending 25 students to the United States for a
(Audit Report No. E-267-08-003-P)                               masters degree program and reprogram up to $5 million
                                                                allocated for the program to be put to better use.




                                                                                                      April 1 – September 30, 2008 13
     Management decisions have been reached on all eight           redirecting resources to areas where progress can have
     recommendations, and final action has been taken              more of an impact.
     on three. In addition to putting $5 million to better
     use, the mission reported taking action to reprogram          Management decisions have been reached on all four
     an additional $1 million associated with participant          recommendations, and final action has been taken on two.
     training. Therefore, a management decision has been           (Audit Report No. 5-306-08-006-P)
     reached to put $6 million to better use.

     (Audit Report No. E-267-08-006-P)                             USAID/Afghanistan’s Accelerating Sustainable
                                                                   Agriculture Program Needs Improvement
     USAID/Afghanistan’s Small and Medium Enterprise               Afghanistan boasted of an agriculture sector that provided
     Development Activity Produced Mixed Results                   more than 80 percent of the nation’s income, but it has
     In October 2006, USAID/Afghanistan awarded a                  become heavily dependent on food aid from international
     $36.8 million contract to implement the Afghanistan           donors. To deal with ongoing political instability and
     Small and Medium Enterprise Development Activity.             economic hardship, farmers turned to the cultivation of
     Project goals are to provide business development services,   opium poppies to provide income. In November 2006,
     eliminate nongovernmental barriers to establishing and        USAID/Afghanistan launched its 4-year Accelerating
     running efficient businesses, assist in establishing a more   Sustainable Agriculture Program under a $102 million
     vibrant private sector, and help provide licit economic       contract. USAID/Afghanistan measures progress under
     opportunities for thousands of Afghans.                       this program against eight performance indicators.
                                                                   Indicators include the number of full-time-equivalent jobs
     OIG conducted an audit to determine whether                   created, number of rural households benefiting directly
     USAID/Afghanistan’s Small and Medium Enterprise               from U.S. Government interventions, and increased sales
     Development Activity was accomplishing planned results        of licit products in U.S. Government-assisted areas.
     and to assess the program’s impact.
                                                                   OIG’s audit determined that for two of the eight
     OIG could not determine whether 11 of 18                      indicators, intended results were not achieved. Targets
     performance indicators used to measure progress met           for the other six had not been established, so the
     planned results during the first year of implementation.      project’s progress could not be assessed. In addition,
     The contractor’s performance data for the 11                  the contractor did not have adequate documentation to
     performance indicators were not reliable because a            support reported results for six of the eight indicators. For
     lack of controls in the contractor’s database resulted        example, the contractor had no support for the reported
     in overstated project results. For the remaining seven        result that project activities had generated economic
     indicators, the project partially met six indicators and      value in excess of $59 million. In addition, a $40 million
     exceeded one.                                                 initiative to cultivate 10,000 hectares for a commercial
                                                                   farm was not finalized in time to take advantage of the
     OIG made four recommendations, including refining             summer planting season.
     the project database to help ensure data reliability,
     implementing a Web-based management information               OIG made 15 recommendations, including preparing
     system, updating the performance management plan,             a plan to implement the $40 million program to
     redefining the performance indicators and targets and         cultivate 10,000 hectares for a commercial farm;




14 OFFICE OF INSPECTOR GENERAL SEMIANNUAL REPORT TO THE CONGRESS
requiring the contractor to repair defects in the           OIG recommended that USAID/Afghanistan direct the
buildings it constructed; determining whether the           contractor to develop a detailed work plan in accordance
contractor is permitted to purchase over $37,000 in         with contract requirements and put in place an approved
commodities without prior written approval; and             results monitoring plan, reevaluate the funding of salaries
determining the nature, format, and timing of the           for approximately 460 Ministry of Health employees
reports required to monitor contract performance.           valued at $11.1 million, and approve and ensure
                                                            implementation of a branding and marking plan.
Management decisions have been reached on all 15
recommendations, and final action has been taken on five.   Management decisions have been reached on all four
                                                            recommendations, and final action has been taken on two.
(Audit Report No. 5-306-08-009-P)
                                                            (Audit Report No. 5-306-08-012-P)
USAID/Afghanistan’s Capacity Development
Program Lacked Assessment Data                              Procurement and Distribution of Commodities
                                                            for PEPFAR Is Successful but Improvements
Almost every sector in Afghanistan needs to build
                                                            Could Be Made
capacity in order to rebuild and promote economic
expansion. In February 2007, USAID/Afghanistan              In May 2003, Congress enacted legislation to
awarded a $218.6 million contract to implement              fight human immunodeficiency virus/acquired
the Capacity Development Program, with an                   immunodeficiency syndrome (HIV/AIDS) globally
expected end date of 2012. The program focuses on           through PEPFAR; $18.8 billion had been committed
strengthening public, private, and nongovernmental          through January 2008.
institutions, increasing their effectiveness and
streamlining their operations, and providing training       During this period, OIG conducted audits of the
and technical assistance.                                   procurement and distribution of PEPFAR commodities
                                                            in Vietnam and Zambia. Commodities include products
OIG’s audit could not determine whether the program         purchased with funding for the prevention and treatment
was on track to achieve planned results because             of HIV/AIDS, such as test kits, lab equipment and
there were no detailed plans in place to describe the       supplies, and essential antiretroviral drugs and medicines
contractor’s expected results or to monitor results using   used to prevent and treat HIV/AIDS-related infections.
performance indicators, targets, and periodic reporting     OIG conducted these audits to determine whether the
against these targets. Nevertheless, some positive          USAID missions procured, deployed, and warehoused
results were achieved. For example, the contractor          PEPFAR commodities to ensure that intended results were
provided technical support to seven line ministries that    achieved, and to assess the programs’ impact.
enabled each ministry, for the first time, to prepare
and submit operational and technical budgets based          USAID/Vietnam and USAID/Zambia procured,
upon ministry program and policy objectives. The            deployed, and warehoused commodities, and their
program also supported the opening of a construction        efforts made a substantial impact on helping people with
training center in March 2008, in an effort to increase     HIV/AIDS live longer and healthier lives.
the quality, quantity, and variety of goods and services    OIG made eight recommendations to strengthen the
offered by Afghan construction firms.                       programs, including improving commodity storage
                                                            conditions, providing additional training for health- and



                                                                                              April 1 – September 30, 2008 15
     storage-facility staff, strengthening recordkeeping and       audits conducted at USAID missions in Cambodia, India,
     inventory management, and improving the accuracy of           Malawi, Russia, and Zimbabwe. USAID missions in
     reported results.                                             Cambodia, India, and Russia achieved planned results as
                                                                   laid out in their respective grants, cooperative agreements,
     A management decision has been reached on all eight           and contracts in fiscal year 2006. USAID/Zimbabwe did
     recommendations, and final action has been taken on           not meet planned results because of hyperinflation. This
     seven.                                                        hyperinflation eroded purchasing power and contributed
     (Audit Report Nos. 5-440-08-007-P and 9-611-08-007-P)         to the low achievement rate. USAID/Malawi’s PEPFAR
                                                                   activities did not achieve intended results in their grants,
                                                                   cooperative agreements, and contracts, although five of the
     PEPFAR Produced Mixed Results                                 seven planned outputs were met.
     In May 2003, President Bush established PEPFAR.               Four of the five country-level audit reports identified
     Through January 2008, $18.8 billion had been                  issues related to data quality, and those reports have
     committed.                                                    already made specific recommendations to correct
     OIG conducted audits to determine whether USAID’s             identified problems. This summary report recommended
     PEPFAR prevention, care, and treatment activities             that the Office of HIV/AIDS Director request that the
     achieved planned results in grants, cooperative agreements,   U.S. Department of State’s Office of the U.S. Global
     and contracts. This report summarized the results of OIG      AIDS Coordinator issue clear and explicit guidance to




                                                                          Photograph of a pharmacist preparing a prescription of
                                                                          antiretroviral drugs at a PEPFAR-supported clinic in Ho Chi
                                                                          Minh City,Vietnam. (Photograph by RIG/Manila)




16 OFFICE OF INSPECTOR GENERAL SEMIANNUAL REPORT TO THE CONGRESS
all missions with PEPFAR activities to ensure that data      Food Diversion in West Africa
quality assessments are conducted properly and reported
results are verified.                                        The USAID RIG in Pretoria, South Africa, received
                                                             information regarding potential fraud involving a
Final action has been taken on the recommendation.           P.L. 4801 Title II Food for Peace Program (FFP) in
                                                             West Africa. USAID supports the program through a
(Audit Report No. 9-000-08-008-P)                            $26 million cooperative agreement with a consortium
                                                             of four U.S.-based nongovernmental organizations
USAID/Uganda’s Implementation of PMI Needs                   (NGOs). The complaint involved food diversion
Improvement                                                  within a consortium partner organization, a recipient
                                                             of a $3 million subaward.
PMI was launched in June 2005 with a goal of
reducing malaria-related deaths in 15 countries in           An OIG investigator conducted interviews of former and
Africa. This 5-year, $1.2 billion initiative intends         current employees of the subject subrecipient organization
to reach 85 percent of the most vulnerable people            and worked with the lead consortium partner to develop an
(pregnant women and children under age 5) through            audit scope of work. The audit extrapolated a commodity
prevention and treatment.                                    loss of approximately $22,000, representing 9 percent of
                                                             reported food deliveries.
OIG’s audit determined that some progress toward
achieving results was reported, OIG found significant        The subrecipient employees suspected as perpetrators of
issues—insecticide was stored with drugs and                 the food fraud were terminated, and the organization
insecticide packages had expired before they could           is recruiting an entirely new food commodities team.
be used. In addition, the mission had an incomplete          The lead and partner organizations have consequently
performance management plan, project site visits             implemented new internal controls and monitoring
were not conducted, data quality assessments were            systems for commodity tracking and deliveries.
not completed, and the four districts reviewed did not
                                                             The USAID Regional FFP Office is issuing a bill for
have inventory control systems.
                                                             collection for the commodity loss. The investigative results
OIG made 13 recommendations to strengthen the                represent a collaborative effort among OIG, USAID
program, including immediately separating the stocks         Regional FFP Office, and USAID/FFP Washington offices.
of insecticide from medicine and medical supplies,
destroying contaminated medicine and medical                 Audit of the USAID’s Compliance with the Federal
supplies, training service providers on proper insecticide   Information Security Management Act of 2002
storage, developing a plan to dispose of expired
                                                             (FISMA) for Fiscal Year 2008
insecticide, finalizing the performance management
plan, establishing appropriate procedures for the future,    An audit was conducted to determine whether USAID
and performing and documenting site visits.                  had implemented selected minimum-security controls for
                                                             its information systems, as required by the FISMA.
Final action has been taken on all 13 recommendations.
                                                             1  Title II of Public Law 480 (the “Agricultural Trade Development
(Audit Report No. 4-617-08-004-P)                            and Assistance Act of 1954”) provides the funding for USAID’s
                                                             “Food For Peace” program, which provides commodity donations to
                                                             address food security needs in development projects and emergency
                                                             food assistance programs.



                                                                                                  April 1 – September 30, 2008 17
                                                                                         Photograph of Municipal Profile planning
                                                                                         meeting with the women’s focus group in
                                                                                         Chitato Municipality in Angola.
                                                                                         (Photograph by RIG/Pretoria)




     OIG found that USAID had implemented the selected             and the hardware and software infrastructure needed
     minimum-security controls to protect the confidentiality,     to support both versions presents a challenge to the
     integrity, and availability of its financial management and   Federal Government.
     general support systems. However, the Agency still faced
     several important challenges to refine its information        To guide Federal agencies in their transition to version 6,
     security program. To address these challenges, OIG made       the Office of Management and Budget (OMB) issued a
     19 recommendations. A management decision has been            memorandum that outlined a strategy for agencies to
     reached on all recommendations. USAID’s actions in            follow and established a goal for all Federal agency
     response to these recommendations will be reviewed in         networks to support version 6 by June 30, 2008.
     the FISMA audit for fiscal year 2009.                         OIG conducted an audit to determine whether USAID
     (Audit Report No. A-000-08-009-P)                             developed a complete inventory of existing Internet
                                                                   Protocol version 6 compliant devices and completed an
                                                                   analysis to determine the fiscal and operational impacts
     USAID Complied with Office of Management and                  and risks of migrating to version 6 in accordance with
     Budget Transition Strategy for Internet Protocol              OMB guidance.
     Version 6
                                                                   USAID substantially complied with OMB guidance for
     Every hardware and software device connected to               completing an inventory of network core requirements and
     the Internet requires an Internet Protocol address            for completing its impact analysis of migrating to version 6.
     represented by a unique number. Currently, two
     types of Internet Protocol addresses are in use               OIG did not make any recommendations.
     worldwide: version 4 and version 6. Version 4 is the
                                                                   (Audit Report No. A-000-08-006-P)
     most commonly used in the United States, with the
     capacity to support about 4.3 billion unique addresses.
     However, demand for Internet Protocol addresses is            USAID’s Democracy and Governance Activities
     expected to increase as more and more of the world’s          Had Mixed Results
     population requests Internet access and uses electronic
                                                                   Democracy and governance activities include improving
     devices that require an IP address. Version 6 is intended
                                                                   human rights, legislative and local government,
     to meet this future demand with a significantly larger
                                                                   elections and political processes, civic participation, and
     capacity than version 4 can provide. Consequently, use
                                                                   media freedom. OIG conducted multicountry audits to
     of both versions is expected to overlap for some time,



18 OFFICE OF INSPECTOR GENERAL SEMIANNUAL REPORT TO THE CONGRESS
         Photograph of Municipal Profile planning
         meeting with the women’s focus group in
                   Chitato Municipality in Angola.
                    (Photograph by RIG/Pretoria)




determine whether USAID mission activities achieved          whether the other 4 achieved intended results. It was
their intended results and to assess their impact. During    difficult to determine whether USAID/Angola achieved
this period, audits were conducted in Haiti, Angola,         planned results because of weaknesses in recordkeeping
and Kyrgyzstan.                                              and reporting systems resulting from a lack of training.
                                                             In addition, reported data were unreliable because data
More than 12 separate governments have held political        quality assessments were not always completed.
power in Haiti since 1986. Before and after the 2006
elections, USAID/Haiti has supported democratic              OIG made seven recommendations, including providing
progress in Haiti. In fiscal year 2007, USAID/Haiti          training to implementing partners and service providers
achieved 8 of 24 performance targets for its democracy       and strengthening procedures to ensure that all data
and governance activities. USAID/Haiti achieved              quality assessments include a thorough review of data
planned results in the areas of legislative functions,       reliability. Management decisions have been reached on all
and processes, public sector executive functions,            recommendations, and final action has been taken on four.
anticorruption reform, and elections and political
processes. However, USAID/Haiti needs to set realistic       Following Kyrgyzstan’s revolution in March 2005 and
performance targets and communicate them to partners,        a presidential election, the Government accepted the
assess training effectiveness, improve reporting of          need for a series of reforms, covering rule of law, fiscal
results, provide better control of a program for hiring      decentralization, parliamentary reorganization, and the
consultants to work in the executive branch, and obtain      media. Of the 66 activities reviewed, 62 achieved intended
formal commitments and develop an action plan to             results. However, USAID/Kyrgyzstan’s democracy
establish a parliamentary research center. OIG made          and governance activities had only a limited impact in
nine recommendations to strengthen the program.              promoting Kyrgyzstan’s democratic development. The lack
Management decisions were reached on all nine                of impact was attributed to factors outside the mission’s
recommendations.                                             control, such as USAID’s declining funding levels for
                                                             democracy and governance programs in Central Asia and
USAID/Angola’s program is directed at increasing             the difficult political environment in the country. OIG did
case management efficiency within the court system;          not make a recommendation.
strengthening Angolan human rights NGOs ability
to assess, monitor, and report on human rights issues;       (Audit Report Nos. 1-521-08-004-P, 4-654-08-006-P,
and introducing new practices to Angolan diamond-            and 8-116-08-002-P)
mining companies to control diamond smuggling. Of
11 indicators audited, 6 activities had achieved intended
results, one did not, and it was not possible to determine



                                                                                              April 1 – September 30, 2008 19
     Missions in Latin America and the Caribbean                 Management decisions are pending on both
     (LAC) Bureau Need to Improve Compliance with                recommendations as OIG works to reach an agreement
     Forward Funding Requirements                                with each mission with excess obligations.

     Funding decisions by operating units must comply            (Audit Report No. 1-598-08-006-P)
     with USAID policy directives and required procedures.
     A balance must be achieved between providing                OIG’s Oversight Activities Continue in the West
     adequate funds for activities but limiting obligations to   Bank and Gaza
     necessary costs.
                                                                 OIG’s oversight activities in the West Bank and Gaza
     OIG conducted an audit to determine whether USAID           included audits of USAID’s cash-transfer program to the
     missions in the LAC region complied with forward            Palestinian Authority and continuing audits of USAID’s
     funding limits in accordance with USAID policy.             contractors and grantees.
     USAID policy states that, with some exceptions,             USAID contracted with independent public accounting
     missions should not forward fund obligations for            firms to conduct concurrent audits of cash transfers
     more than 12 months beyond the end of the fiscal            to the Palestinian Authority; financial audits; and
     year in which the obligations take place. Missions in       agreed-upon procedures of contractors’, grantees’,
     the LAC region exceeded forward funding limitations         subcontractors’, and subgrantees’ processes. These audits
     by at least $335 million in fiscal year 2006 and earlier    help ensure the validity of costs claimed and compliance
     years. This amount should have been fully expended          with Executive Order 132242 regarding blocking
     by September 30, 2007.                                      assistance to terrorist organizations. During this period
     In addition, LAC missions had $142 million in unspent       OIG issued 18 final reports, which identified questioned
     obligations that they did not expect to be able to spend    costs of approximately $3.8 million of the $84.5 million
     during fiscal year 2008. This occurred because of delays    audited. In addition, the reports identified areas for
     in procurement and program implementation and overly        improvement in internal controls and instances of
     optimistic expenditure projections.                         noncompliance with agreements.

     OIG recommended that missions not in compliance with        OIG oversight activities during this period did not
     the forward funding restriction review their unexpended     identify any instances of terrorist organizations receiving
     obligations and deobligate or reprogram $142 million        USAID funds.
     in excess obligations to areas where the funds could be
     used in fiscal year 2008. Also, OIG recommended that
     missions that were not in compliance with forward
     funding restrictions as of September 30, 2007, revise
     their procedures for reviewing and deobligating or
     reprogramming unexpended obligations that exceed
     forward funding restrictions.


                                                                 2  Executive Order No. 13224, “Blocking Property and Prohibiting
                                                                 Transactions With Persons Who Commit, Threaten to
                                                                 Commit, or Support Terrorism” (September 23, 2001).



20 OFFICE OF INSPECTOR GENERAL SEMIANNUAL REPORT TO THE CONGRESS
Strategic Goal 2:
Protect U.S. foreign assistance programs and
operations from fraud, waste, and abuse

USAID Contractor and Subcontractors Indicted               Employee of USAID Contractor Pleads Guilty To
for Contract Fraud                                         Bank Fraud
A USAID contractor and four subcontractors have            An employee of a USAID contractor working for a
been charged with conspiracy, major fraud, and wire        supplier of polypropylene deliberately falsified shipping
fraud in connection with the war and rebuilding            documents for payment. The employee delayed
efforts in Afghanistan. The indictment alleges that        shipments and backdated shipping documents for
the subcontractors defrauded the United States             multiple transactions valued at over $1 million. The
by obtaining reimbursement for inflated expenses           fraud was done in order to take advantage of falling
purportedly incurred for rental vehicles, fuel, and        polypropylene prices without renegotiating pro forma
security personnel.                                        invoices and passing the savings on to the importer. This
                                                           scheme increased the company’s profit margin, the sales
Contractor Ordered to Pay $7.48 Million in Bills           representative’s commissions, and resulted in USAID
                                                           financing transactions with inflated costs. USAID and
for Collection
                                                           the Federal Bureau of Investigation executed a search
Pursuant to an OIG investigation, a contractor             warrant on the supplier. A company sales representative
responsible for the administration of USAID                has pleaded guilty to felony bank fraud charges and
construction projects in Afghanistan was ordered           agreed to cooperate with further prosecutorial efforts
to pay in excess of $7 million in bills for collection.    involving the company.
The investigation disclosed that the contractor was
responsible for building small-scale infrastructure        Former Relief Official Sentenced to 30-Day Jail
projects under a USAID cooperative agreement. Under        Term
the terms of the cooperative agreement, the contractor
received funding under a Letter of Credit; however,        As a result of an OIG investigation, a former financial
the contractor and a subcontractor failed to provide       director of a USAID-funded nonprofit foundation was
explanations for the funding drawdowns from the            arrested for theft of program funds. On August 5, 2008, a
Letter of Credit. The investigation further cited poor     U.S. District Court judge sentenced the former financial
performance on construction projects, failure to provide   director to 30 days’ imprisonment, to be served on
cost justification, inadequate financial controls, and     consecutive weekends, and 3 years’ probation. In addition,
false reporting on projects.                               the former financial director was ordered to pay restitution
                                                           in the amount of $193,436 in total.



                                                                                             April 1 – September 30, 2008 21
     Employee of USAID Contractor Resigns in Lieu                    procurements would not be granted and that a bill of
     of Termination                                                  collection, totaling $1.2 million, would be issued in the
                                                                     form of a demand letter.
     An employee of a USAID contractor resigned in lieu of
     termination for position abuse. The contractor claimed
     social and familial engagement expenses for official            Employee of USAID Contractor Admits to
     business reimbursement. Further, the manager instructed         Receiving More Than $10,000 in Kickbacks
     incoming employees to inflate their salary histories,           An employee of a USAID contractor on a high-
     participated in an extended conflict of interest with a local   profile anticorruption project confessed to receiving
     nongovernmental organization, and directed a supplier           approximately $10,000 in kickbacks from local vendors
     procurement to an entity that was unable to fulfill its         competing for subaward procurements. During the
     obligation. The subject’s former employer has refunded          investigation, approximately $1,700 in local currency
     USAID $16,591 for the salary overcharges.                       was discovered in the subject’s possession. The
                                                                     aforementioned vendors had received more than
     Employee of USAID Grantee Arrested and Facing                   $1 million in procurements since 2007. The employee
     Extradition                                                     was fired, and the vendors have been suspended from
                                                                     U.S. Government procurements.
     A Liberian national, working as an accountant for a
     USAID-funded grantee that was assisting with Liberian
     national elections, was indicted by a Federal grand jury        Investigation Leads to the Termination of a Foreign
     in the District of Columbia on seven felony counts.             Service National (FSN) and Recovery of $22,326
     The indictment included counts of wire fraud, mail              An investigation conducted in coordination with the
     fraud, and theft from a program receiving Federal funds.        U.S. Embassy in Sofia, Bulgaria, resulted in the firing of
     Subsequent to the indictment, an extradition order was          an FSN. The FSN was terminated for cause as a result of
     obtained through the U.S. Department of State and               multiple violations of the employment provisions within
     signed by the Secretary of State. In a coordinated effort       the Embassy’s Handbook for Locally Employed Staff.
     with diplomatic security agents and United Nations forces       The termination yielded a savings of $16,526 in unpaid
     operating in Liberia, the indicted subject was arrested.        severance funds, bonuses, unused annual leave, and salary.
     Extradition proceedings have commenced and are being            Additionally, a $5,800 bill for collection was issued for
     coordinated through the Liberian Ministry of Justice by         unpaid personal usage of a U.S. Government cell phone,
     U.S. Department of State and U.S. Department of Justice         resulting in a total recovery of $22,326.
     officials in Liberia.

                                                                     OIG Identified $45.8 Million in Questioned Costs
     USAID Grantee Issued $1.2 Million Bill for
     Collection                                                      OIG oversees and reviews audit work conducted by
                                                                     Federal and non-Federal auditors. During this period,
     An OIG investigation determined that the grantee                OIG reviewed 182 audit reports that identified
     made $1.2 million in unauthorized purchases.                    $45.8 million in questioned costs, covering about
     Administrative remedies were sought during the
     course of the investigation. The grantee was officially
     notified by USAID that retroactive approval for the



22 OFFICE OF INSPECTOR GENERAL SEMIANNUAL REPORT TO THE CONGRESS
$2.5 billion3 audited. OIG also issued 26 quality-                  OIG Conducts Financial Management Training
control review reports covering about $577 million
audited.                                                            USAID’s contracts and grants define the types of costs
                                                                    that can be charged in support of various programs. To
For example, at USAID/Afghanistan, OIG reviewed                     increase awareness of and compliance with contracts
a Defense Contract Audit Agency audit report that                   and grants cost principles, OIG conducts financial
identified $937,000 in questioned costs of more than                management training for overseas USAID staff,
$39 million audited and 2 reportable internal control               contractors, and grantees. The training provides a
weaknesses. OIG recommended that USAID/Afghanistan                  general overview of U.S. Government cost principles
recover, as appropriate, about $847,000 in questioned               and audit requirements. It also provides examples of
costs already billed to USAID and correct two reportable            concepts such as reasonableness of costs and allowable
internal control weaknesses. Management decisions have              and unallowable costs.
been reached on both recommendations.
                                                                    During this reporting period, OIG provided financial
In Brazil, a local accounting firm conducted an audit               management training in 6 countries to about
of a consortium named Estradas Verdes for OIG                       350 individuals.
and identified more than $450,000 in questioned
costs of about $5.1 million audited, 6 reportable                   OIG Conducts Fraud Awareness Training
internal control weaknesses, and 9 instances of
noncompliance with agreement terms. Through its                     As part of its proactive strategy, OIG conducts fraud
review of the report and subsequent correspondence                  awareness training for USAID employees, contractors,
with the audit firm, OIG identified an additional                   and grantees. The purpose of this training is to alert
$521,000 in questioned costs. One of the consortium                 personnel to fraudulent schemes and practices so that
members did not have controls in place to allocate                  they can identify and prevent or reduce fraud in USAID
expenses to each agreement or prevent duplicate                     programs and operations. In addition, OIG promotes its
billing. OIG recommended that USAID/Brazil                          hotline and advises attendees of methods and procedures
recover, as appropriate, about $971,000 in questioned               to report potential fraud, waste, or abuse.
costs; correct the internal control and compliance
deficiencies; and obtain evidence that required                     During this reporting period, OIG provided fraud
counterpart contributions of more than $4.2 million                 awareness training in 12 countries to 1,325 USAID staff
have been provided. Management decisions are                        members and contractors.
pending on all three recommendations.

3  The $2.5 billion includes $24 million reported in the previous
SARC period.




                                                                                                   April 1 – September 30, 2008 23
     Strategic Goal 3:
     Continually improve OIG functions and operations


     OIG Helpdesk                                                to multiple management purposes. It creates and tracks
                                                                 requests made to administrative offices for support
     Up-to-date infrastructure and management systems are        in areas such as information technology and human
     essential to strengthening the efficiency, economy, and     resources, and it contains a knowledge base that allows
     effectiveness of OIG’s programs and operations and          helpdesk staff to document common issues, post forms,
     protecting them from fraud, waste, and abuse. OIG           and provide information that users can access easily.
     continued to improve its information management
     systems to help OIG staff perform more productively         It can also be used to manage tasks and resources and
     and reduce risks to security and systems.                   customized, up-to-date reports, including statistical
                                                                 tables, can be generated.
     OIG implemented a helpdesk program using a new, Web-
     based software system that is user-friendly and adaptable




24 OFFICE OF INSPECTOR GENERAL SEMIANNUAL REPORT TO THE CONGRESS
               U.S. AFRICAN DEVELOPMENT
                      FOUNDATION
U.S. African Development Foundation Programs                developing procedures to minimize the risks of misuse
in Ghana and Senegal Need Improvement                       of funds, providing grantees with financial management
                                                            training, and developing an action plan to address how
USADF is a U.S. Government corporation established          to sustain project activities after USADF support ends.
by Congress in 1980. USADF provides grants of
$250,000 or less to small enterprises and community-        Management decisions were reached on 16
based organizations that generate income and                recommendations, and three are pending.
employment in Africa.
                                                            The followup audit in Senegal was conducted to
During this reporting period, OIG conducted an              determine whether USADF/Senegal took corrective
audit in Ghana and a follow-up audit in Senegal. OIG        action on eight recommendations from a prior OIG
conducted the audit at USADF/Ghana to determine             audit report.4 USADF closed two recommendations;
whether it had implemented activities in accordance         however, it did not take sufficient action to implement
with USADF policies and selected U.S. Government            the other six.
regulations. The audit found that USADF/Ghana had
                                                            The followup audit also determined that project
not always done so. Also, financial audits conducted
                                                            implementation was slow, reported information on
by a local accounting firm did not comply with audit
                                                            achievements was inaccurate or unsupported, required
standards, and the firm was not on OIG’s list of eligible
                                                            financial audits were not conducted, and financial
firms. USADF/Ghana did not establish program
                                                            audit reports were not completed in accordance
monitoring and evaluation systems, did not verify the
                                                            with appropriate auditing standards. OIG identified
accuracy of reported data, or ensure that grantees used
                                                            additional issues: grantees had weak financial
USADF funds in accordance with agreements, establish
                                                            management practices, capital assets were not always
financial management systems, or contribute to the
                                                            used for intended purposes, an indication of fraud
USADF community development trust fund designed
                                                            involving USADF funds was not reported to OIG, and
to provide sustainable social and economic development
                                                            grantees did not comply with some agreement terms.
at the community level.
                                                            OIG made 18 recommendations, including recovering
OIG made 18 recommendations, including recovering
                                                            $188,000 in questioned costs, improving the quality of
more than $1.1 million in questioned costs, establishing
                                                            information on program accomplishments, conducting
a plan to correct internal control and compliance
deficiencies, requiring its internal auditor to review
audit reports before audit firms finalize their reports,    4  Audit of Awarding and Monitoring of Grants by the African
                                                            Development Foundation (Audit Report No. 9-ADF-03-005-P,
establishing a monitoring and evaluation system,            February 28, 2003).
                                                                                                April 1 – September 30, 2008 25
     financial audits of grantees, strengthening grantees’   OIG found that USADF’s information security program
     financial management practices, using capital assets    generally complied with FISMA requirements, but
     for intended purposes, reporting irregularities and     weaknesses were identified in four areas. OIG made four
     allegations of fraud to OIG, and improving grantees’    recommendations to address these weaknesses. USADF’s
     compliance with the agreement terms.                    actions in response to the recommendations will be
                                                             reviewed in the FISMA audit for fiscal year 2009.
     Management decisions were reached on 17
     recommendations, and one is pending.                    (Audit Report No. A-ADF-08-008-P)

     (Audit Report Nos. 7-ADF-08-006-P and
     7-ADF-08-007-P)

     Audit of United States African Development
     Foundation’s Compliance with Provisions of
     FISMA for Fiscal Year 2008
     An audit was conducted to determine if the USADF’s
     information system security program met the
     requirements of FISMA.




26 OFFICE OF INSPECTOR GENERAL SEMIANNUAL REPORT TO THE CONGRESS
         INTER-AMERICAN FOUNDATION

Audit of Inter-American Foundation’s                   OIG made one recommendation to strengthen IAF’s
Compliance with Provisions of the FISMA for            information security program. IAF’s actions in response
Fiscal Year 2008                                       to the recommendation will be reviewed in the FISMA
                                                       audit for fiscal year 2009.
An audit was conducted to determine if IAF’s
information system security program met FISMA          Management decision was reached on the one
requirements.                                          recommendation.

OIG found that IAF’s information security program      (Audit Report No. A-IAF-08-007-P)
generally complied with FISMA requirements. However,




                                                                                      April 1 – September 30, 2008 27
28 OFFICE OF INSPECTOR GENERAL SEMIANNUAL REPORT TO THE CONGRESS
APPENDIX I




             April 1 – September 30, 2008 29
Reporting Requirements for USAID, USADF, and IAF
FINANCIAL AUDIT REPORTS ISSUED April 1 – September 30, 2008 USAID

                                                                                                                      Amount
                                                                                                                         of
    Report           Date of                                                                                          Findings    Type of
    Number           Report                                        Report Title                                       ($000s)     Findings

                                         —FOREIGN-BASED ORGANIZATIONS—

 0-118-08-001-R     05/28/08     Audit of the Moscow Public Science Foundation, under USAID Cooperative
                                 Agreement No. 118-A-00-02-00135-00, for the Year Ended December 31, 2006

 1-527-08-041-R     04/17/08     Financial Statement Audit of Strategic Objective Agreement No. 527-0404,               40          QC
                                 Managed by the National Commission for Development and Life Without Drugs              3           UN
                                 (DEVIDA) for the Period From January 1 to December 31, 2006

 1-518-08-042-R     05/19/08     Audit of the Program “ Alliance for the Development of Cocoa of the Amazon             759         QC
                                 Region “ Cooperative Agreement No. 518-A-00-03-00154-00, Project Financed              112         UN
                                 by USAID/Ecuador and Managed by Yachana Gourmet S.A., Period From October
                                 1, 2005 to September 30, 2006

 1-527-08-043-R     05/29/08     Audit of the Fund Accountability Statement of USAID Resources Managed by the
                                 General Rural Electrification Office (Formerly Project Bureau) of the Ministry of
                                 Energy and Mines, Under the Project “San Ignacio Small Electrical System I Stage -
                                 II Phase” for the Period January 1, 2005 to February 28, 2007 (Final Audit)

 1-517-08-044-R     05/29/08     Financial Audit of the Consolidation and Expansion of Opportunities for Citizen
                                 Participation and Political Culture, Project No. 517-A-00-03-00105-00, and
                                 Permanent Program of Formation of Young People Leaders of the Political Parties
                                 of the Dominican Republic, Project No. 517-A-00-05-00111-00, Managed by
                                 Participacion Ciudadana, for the Period September 1, 2006 to August 31, 2007

 1-517-08-045-R     07/20/08     Close-out Financial Audit of the Project: Cooperative Agreement for the
                                 Strengthening of the Transparency System and Rule of Law in the Dominican
                                 Republic, USAID Cooperative Agreement No. 517-A-00-05-00108-00, Managed
                                 by Fundacion Institucionalidad y Justicia, Inc., Fund Accountability Statement for
                                 the Year Ended December 31, 2007, and Independent Auditors’ Report

 1-512-08-046-R     07/18/08     Audit of the USAID Agreement No. 512-A-00-03-00028- 00 “Estradas Verdes”               971         QC
                                 Managed by Instituto de Pesquisa Ambiental da Amazonia for the Period From             925         UN
                                 October 1, 2003 to September 30, 2006

 1-527-08-047-R     07/23/08     Fund Accountability Statement of the Cooperative Agreement No.
                                 EDG-A-00-02-00036-00 “Andean Center of Excellence for Teacher Training”
                                 (Centro Andino de Excelencia Para la Capacitacion de Maestros) Financed
                                 Through USAID, Managed by Universidad Peruana Cayetano Heredia, for the
                                 Period From October 1, 2006 to September 30, 2007

BU – Better Use of Funds • QC – Questioned Costs • UN – Unsupported Costs • Note: UN is part of QC




30 OFFICE OF INSPECTOR GENERAL SEMIANNUAL REPORT TO THE CONGRESS	                                                                Appendix A
                                                                                                            Amount
                                                                                                               of
   Report        Date of                                                                                    Findings     Type of
   Number        Report                                    Report Title                                     ($000s)      Findings

1-596-08-048-R   07/31/08   Comision Centroamericana de Ambiente y Desarollo - CCAD - Audit of the
                            Fund Accountability Statement of USAID Resources Provided Under Strategic
                            Agreement No. 596-A-06-00078-00 “Economic Freedom: Open Diversified
                            Expanding Economies in Central America and the Dominican Republic” - Project
                            Managed by DDAD, for the Year Ended December 31, 2007

1-522-08-049-R   08/01/08   Audit of the Fund Accountability Statement of the USAID/Trade Investment and
                            Competitiveness Program, Cooperative Agreement No. 522-A-00-05-00303-00,
                            Managed by Foundation for Investment and Development of Exports, for the
                            Period From January 1 to December 31, 2007

1-521-08-050-R   08/07/08   Close-out Audit of the Fund Accountability Statement of USAID Resources
                            Managed by La Fondation Heritage Pour Haiti Under Cooperative Agreement
                            No. 521-A-00-02- 00023-00 for the Period From October 1, 2006 to December
                            31, 2007

1-520-08-051-R   08/11/08   Audit of the Fund Accountability Statement of the Program to Strengthen
                            Competitiveness of Guatemalan Business and Products, Cooperative Agreement
                            No. 520-A-00-05- 00009-00, Administered by the Asociacion Guatemalteca de
                            Exportadores, for the Year Ended December 31, 2007

1-522-08-052-R   08/19/08   Audit of USAID Resource, Program No. 5980023.00, Managed by Universidad
                            Pedagogica Nacional Francisco Morazan Under Cooperative Agreement No.
                            522-A-00- 02-00348-00, Program Centers of Excellence for Teachers Training
                            in Central American and Cooperative Agreement No. 522-A-00-06-00307-00,
                            Program Centers of Excellence for Teachers Training in Central American and
                            Dominican Republic, for the Period From October 1st, 2006 to September 30th,
                            2007

1-511-08-053-R   08/26/08   Audit of the Fund Accountability Statement of the Cooperative Agreement No.        29          QC
                            511-A-00-02-00200-00 “Hydra, Forest and Biodiversity Resources Managed
                            for Sustainable Economic Development” Managed by the Amazonian Forest
                            Development Center, for the Year Ended December 31, 2006

1-511-08-054-R   08/26/08   Audit of the Fund Accountability Statement of the Cooperative Agreement
                            No. 511-A-00-02-00206-00 “Support to Arising Market of Certified Forest
                            Products” Managed by the Amazonian Forest Development Center, for the Year
                            Ended December 31, 2006

1-518-08-055-R   08/26/08   Financial Audit of Cooperative Agreement No. 518-A-00- 06-00046-00, Called
                            “Promotion and Demand of Political and Labor Rights for Handicapped People
                            in Ecuador Program,” Managed by the Federacion Nacional de Ecuatorianos
                            con Discapacidad Fisica, Fund Accountability Statement for the Period
                            September 1, 2006 to December 31, 2007

1-512-08-056-R   08/29/08   Audit of the USAID Agreement No. 512-A-00-05-00025- 00 “Renewable                 847          QC
                            Energy & Development” Managed by Instituto de Desenvolvimento Sustentavel         843          UN
                            e Energias Reuovaveis for the Period From October 1, 2005 to September 30,
                            2006

                                BU – Better Use of Funds • QC – Questioned Costs • UN – Unsupported Costs • Note: UN is part of QC




Appendix A	                                                                                         April 1 – September 30, 2008 31
                                                                                                                 Amount
                                                                                                                    of
    Report           Date of                                                                                     Findings    Type of
    Number           Report                                      Report Title                                    ($000s)     Findings

 4-696-08-006-N     04/02/08     Closeout Audit of USAID Resources Managed by the Genocide Survivors Fund          215         QC
                                 (GSF) Under Grant Agreement No. 696-0156-G-97-004-00 for the period               208         UN
                                 October 1, 2002 to December 31, 2005

 4-621-08-007-N     04/25/08     Closeout Audit of USAID Resources Managed by the Health Scope Tanzania            459         QC
                                 Under Strategic Objective Grant No. 621001-01, Contract No. 623-C-00-03-           35         UN
                                 00043-00 for the period September 1, 2003 to March 31, 2005

 4-663-08-008-N     06/06/08     Audit of USAID Resources Managed by the Relief Society of Tigray (REST)           288         QC
                                 under Cooperative Agreements Nos. FFP-A-00-03-00004-00, 663-A-00-02-              288         UN
                                 00366-00, DFD-G- 00-04-00162-00, HAD-G-00-03-00049, FFP-A-00-03-
                                 00049-00, 663-A-00-03-00354-00 and 663-A-00-03-00352- 00 for the year
                                 ended December 31, 2004

 4-663-08-009-N     06/06/08     Audit of USAID Resources Managed by the Tigray Development Association             2          QC
                                 (TDA) under Cooperative Agreements No. 663-A-00-02-00321-00 Basic
                                 Education Strategic Objective (BESO-II) for the year ended June 30, 2006

 4-663-08-010-N     06/26/08     Closeout Audits of USAID Resources Managed by the Relief Society of Tigray        32          QC
                                 (REST) under Cooperative Agreements Nos. FFP-A-00-03-00004-00 (PL 480
                                 Title II), FFP-A-00-03-00004-07 (PL 480 Title II Section 202e), 663- A-00-02-
                                 00366-00, 663-A-00-03-00352-00, and Audits of USAID Resources managed by
                                 REST under Cooperative Agreements Nos. DFD-G-00-04-00162-00, 663-A-
                                 00-05- 00406-00 and FFP-A-00-05-00028-00 for the year ended December 31,
                                 2005

 4-611-08-011-N     07/02/08     Closeout Audit of USAID Resources Managed by the Law Association of               392         QC
                                 Zambia (LAZ) for the Alternative Dispute Resolution (ADR) Project under            96         UN
                                 Grant Agreements No. 690-G-00-00-00018-00 and 690-G-00-03-00186-00 for
                                 the period December 20, 1999 to August 1, 2003

 4-674-08-012-N     07/30/08     Audit of USAID Resources Managed by the Southern African Development              378         QC
                                 Community-Parliamentary Forum Under Strategic Objective Grant Agreement            17         UN
                                 No. 690-0305 for the Year Ended March 31, 2007

 4-663-08-013-N     08/26/08     Close-Out Audit of USAID Resources Managed by Tigray Development                  214         QC
                                 Association (TDA) under Cooperative Agreement Number 663-A-00-02-                  73         UN
                                 00321-00 for the period January 30, 2002 to June 30, 2007

 4-000-08-014-N     08/27/08     Agency Contracted Agreed Upon Procedures Review of USAID Resources               13,848       QC
                                 Managed by the Consortium for Development Relief in Angola (CDRA) under          13,336       UN
                                 Program FFP-A-00-03-00048-00 for the period March 1, 2003 to September 30,
                                 2005

 4-611-08-015-N     09/19/08     Close-Out Audit of USAID Resources Managed by the Churches Health                2,432        QC
                                 Association of Zambia Under Cooperative Agreement No. 690-A-00-99-00265-         2,085        UN
                                 00 for the Thirty-Six Month Period Ended March 31, 2005

BU – Better Use of Funds • QC – Questioned Costs • UN – Unsupported Costs • Note: UN is part of QC




32 OFFICE OF INSPECTOR GENERAL SEMIANNUAL REPORT TO THE CONGRESS	                                                           Appendix A
                                                                                                             Amount
                                                                                                                of
   Report         Date of                                                                                    Findings     Type of
   Number         Report                                    Report Title                                     ($000s)      Findings

 4-612-08-016-N   09/19/08   Close-Out Audit of USAID Resources Managed by the Malawi Centre for                664          QC
                             Advice, Research and Education on Rights (Carer), Support for Legal and            659          UN
                             Paralegal Services Program in Rural Malawi Under Cooperative Agreement No.
                             690-A-02-00060-00 for the Period October 1, 2003 to January 31, 2005

 4-000-08-017-N   09/30/08   Agency Contracted Audit of USAID Resources Managed by the African                  89           QC
                             Centre for the Constructive Resolution of Disputes, Under Grant No.                89           UN
                             AOT-G-00-98-00183-00 and DAI Sub-Contract for the Year Ended December
                             31, 2005

 4-674-08-021-R   04/08/08   Recipient Contracted Audit of USAID Resources Managed by Educational               401          QC
                             Opportunities Council under the Cooperative Agreement No. 674-A-00-90-             400          UN
                             00038 for the year ended December 31, 2002

 4-621-08-022-R   04/10/08   Recipient Contracted Audit of USAID Resources to The Quick Start Care               3           QC
                             & Treatment and Rapid Funding Envelope (RFE) for HIV/AIDS Managed by                3           UN
                             Deloitte & Touche under Strategic Objective Agreement No. 621001- 01,
                             Contract No. 623-C-00-03-00004-00 for the period January 1, 2005 to
                             December 31, 2006

 4-623-08-023-R   04/18/08   Close Out Audit of USAID Resources Managed by African Centre For                    3           QC
                             Technology Studies (ACTS) Under Cooperative Agreement No. 623-A-00-
                             04-00099-00 and Sub-Agreement with the Association for Strengthening
                             Agricultural Research in Eastern and Central Africa (ASARECA) for 15 Months
                             Period ended March 31, 2007

 4-617-08-024-R   04/24/08   Audit of USAID Resources Managed by Inter-Religious Council of Uganda               2           QC
                             under Contract Nos. CRTA-2005-01, CRTA-06-10, UPHOLD 102-2005,
                             UGA/087/IRCU/001 and 617-C-00-06-00292-00 for the year ended December
                             31, 2006

 4-621-08-025-R   05/09/08   Audit of USAID Resources Managed by the Ministry of Health and Social
                             Welfare - Centre for Educational Development in Health Arusha (CEDHA)
                             under Strategic Objective Grant Agreement No. 621-0001-01, Implementation
                             Letter No. 76 for the year ended June 30, 2006

 4-617-08-026-R   05/09/08   Audit of USAID Resources Managed by Joint Clinical Research Centre (JCRC)          296          QC
                             under Cooperative Agreement Number 617-A-00-04-00003-00 for the year                56          UN
                             ended June 30, 2006

 4-674-08-027-R   05/12/08   Audit of USAID Resources Managed by Business Against Crime - South Africa          150          QC
                             (BAC-SA) Crime under Cooperative Agreement No. 674-A-00-02-00012-00                150          UN
                             for the period June 1, 2004 to May 31, 2005

 4-623-08-028-R   06/05/08   Recipient Contracted Audit of USAID Resources Managed by The                       44           QC
                             Commonwealth Regional Health Community for East, Central and Southern              44           UN
                             Africa (CRHC-ECSA) under Limited Scope Grant Agreement No. 6980483.23-
                             80003 for the year ended June 30, 2007

                                BU – Better Use of Funds • QC – Questioned Costs • UN – Unsupported Costs • Note: UN is part of QC




Appendix A	                                                                                          April 1 – September 30, 2008 33
                                                                                                               Amount
                                                                                                                  of
    Report          Date of                                                                                    Findings    Type of
    Number          Report                                       Report Title                                  ($000s)     Findings

 4-674-08-029-R     06/05/08     Recipient Contracted Audit of USAID Cooperative Agreement No. 674-A-00-         145         QC
                                 00012-00 with Business Against Crime for the period June 1, 2006 to May 1,      145         UN
                                 2007

 4-623-08-030-R     06/05/08     Recipient Contracted Audit of USAID Resources Managed by Regional               29          QC
                                 Centre for Quality of Health Care under Limited Scope Grant Agreement
                                 No. 6230010.40-0002 and the Strategic Objective Grant Agreement No.
                                 623SAOG230011.02-60088 for the year ended June 30, 2007

 4-674-08-031-R     06/06/08     Close-Out Audit of Umalusi Council for Quality Assurance in General and         15          QC
                                 Further Education and Training Under USAID Bilateral Agreement No. 674-         14          UN
                                 0302-G-00-5031 for the period April 1, 2003 to September 30, 2005

 4-663-08-032-R     06/17/08     Audit of The Food Security Coordination Bureau Under Limited Scope Grant
                                 Agreement (LSGA) No. 663-04-01 for the period September 01, 2004 to July 7,
                                 2005

 4-621-08-033-R     06/17/08     Audit of USAID Resources Managed by the Government of the United
                                 Republic of Tanzania’s Ministry of Health and Social Welfare - Primary
                                 Health Care Institute (PHCI) Iringa Project Under Strategic Objective Grant
                                 Agreement No. 621-0011-01, Implementation Letters No. 2 and 3 for the
                                 period July 1, 2006 to June 30, 2007

 4-663-08-034-R     06/17/08     Audit of the Ethiopian Orthodox Church Development and Inter-Church Aid          2          QC
                                 Commission (EOC/DICAC) under the USAID Food Security Program (FSP)               1          UN
                                 PL 480 Title II Development Activity Proposal, Cooperative Agreement No.
                                 FSP-A-00-98-00032-05, for the year ended December 31, 2003


 4-663-08-035-R     06/18/08     Closeout Audit of the Ethiopian Orthodox Church Development and Inter-          60          QC
                                 Church Aid Commission (EOC/DICAC) under the USAID Food Security
                                 (FSP) Program PL 480 Title II Development Activity Proposal, Cooperative
                                 Agreement No. FSP-A-00-98-00032-05, for the year ended December 31, 2004

 4-663-08-036-R     06/19/08     Audit of USAID Resources Managed by the Ministry of Agriculture and Rural       177         QC
                                 Development Under Limited Scope Grant Agreement (LSGA) No. 663-03-02
                                 for the period June 12, 2003 to September 30, 2004

 4-663-08-037-R     06/20/08     Audit of the Ministry of Health’s Improved Family Health Under Strategic        258         QC
                                 Objective Grant Agreement (SOGA) No. 663-0080 for the period June 12,           258         UN
                                 2003 to July 7, 2004

 4-617-08-038-R     07/02/08     Audit of USAID Resources Managed by Joint Clinical Research Centre (JCRC)       482         QC
                                 under Cooperative Agreement Number 617-A-00-04-00003-00 for the year
                                 ended June 30, 2007

BU – Better Use of Funds • QC – Questioned Costs • UN – Unsupported Costs • Note: UN is part of QC




34 OFFICE OF INSPECTOR GENERAL SEMIANNUAL REPORT TO THE CONGRESS	                                                         Appendix A
                                                                                                                 Amount
                                                                                                                    of
   Report         Date of                                                                                        Findings    Type of
   Number         Report                                      Report Title                                       ($000s)     Findings

 4-673-08-039-R   07/10/08   Audit of USAID Resources Managed by ORT Namibia Trust Under Cooperative               28           QC
                             Agreement Number 690-A-00-05-00150-00, Helping Young People & Their
                             Families Overcome the Impact of HIV/AIDS in Namibia - Skills, Opportunities,
                             Self-reliance (SOS) Program for sixteen months ended December 31, 2006

 5-367-08-003-N   04/18/08   Financial Audit of the Department of Health Services, Government of Nepal,            36           QC
                             Under USAID Strategic Objective Grant Agreement, Project No. 367-02A1                 6            UN
                             Implementation Letter No. 38, for the Period from July 17, 2003, to July 15,
                             2004

 5-391-08-005-N   08/20/08   Financial Audit of the Project Titled “Technical Assistance and Training to
                             Improve Project and Financial Management of Provincial and District Health
                             and Population Welfare Services in Pakistan,” USAID/Pakistan Limited Scope
                             Grant Agreement No. 391-G-00-04-01020-00, Managed by the Options
                             Consultancy Services Limited (Options) - Technical Assistance Management
                             Agency (TAMA), for the Period from January 1, 2004, to March 31, 2006

 5-391-08-017-R   04/15/08   Financial Audit of the Developing Non-Bankable Territories for Financial              82           QC
                             Services Program, USAID/Pakistan Cooperative Agreement No. 391-A-00-03-
                             01011-00, Managed by Khushhali Bank, for the Period from January 1, 2005, to
                             December 31, 2006

 5-383-08-018-R   04/25/08   Closeout Audit of the Emergency Assistance for Tsunami Affected Population,           64           QC
                             USAID/Sri Lanka Cooperative Agreement Number 386-A-00-05-00043-                       16           UN
                             00, Managed by GOAL Sri Lanka, for the Period from January 13, 2005, to
                             September 30, 2005

 5-306-08-019-R   04/25/08   Closeout Audit of the Project Titled “Business Advisory Services to Small             695          QC
                             and Medium - Sized Enterprises (SMEs) in Afghanistan,” USAID/Afghanistan              653          UN
                             Cooperative Agreement No. 306-A-00-04-00570-00, Managed by Acap
                             Management Limited, for the Period from September 30, 2004, to March 29, 2007

 5-386-08-020-R   04/25/08   Financial Audit of USAID Resources Managed by Voluntary Health Services               200          QC
                             (VHS) for the Year Ended March 31, 2007                                                9           UN

 5-386-08-021-R   05/02/08   Financial Audit of the Program titled “Innovations in Family Planning Services
                             Project,” USAID/India Project No. 386- 0527, Managed by the State Innovations
                             in Family Planning Services Project Agency (SIFPSA), for the Period from April 1,
                             2006, to March 31, 2007

 5-497-08-022-R   05/21/08   Closeout Audit of the Program Titled “Promoting Forest Certification and
                             Combating Illegal Logging in Indonesia,” USAID/Indonesia Cooperative
                             Agreement No. 497-A-00- 02-00060-00, Managed by Yayasan WWF Indonesia
                             (YWWF/I), for the Period from July 1, 2006, to June 30, 2007

 5-442-08-023-R   06/06/08   Financial Audit of USAID Funds Managed by the Khmer HIV/AIDS NGO                      183          QC
                             Alliance (KHANA), for the Year Ended December 31, 2006                                183          UN

                                 BU – Better Use of Funds • QC – Questioned Costs • UN – Unsupported Costs • Note: UN is part of QC




Appendix A	                                                                                             April 1 – September 30, 2008 35
                                                                                                                    Amount
                                                                                                                       of
    Report          Date of                                                                                         Findings    Type of
    Number          Report                                        Report Title                                      ($000s)     Findings

 5-386-08-024-R     06/12/08     Financial Audit of the Financial Institutions Reform and Expansion (FIRE D-III)
                                 Project, USAID/India Grant Agreement No. 386-A-00-03-00175-00, Managed
                                 by the National Institute of Urban Affairs (NIUA), for the Period from April 1,
                                 2006, to March 31, 2007

 5-386-08-025-R     06/18/08     Financial Audit of USAID Funds Managed by the ICICI Bank Limited (ICICI), for
                                 the Year Ended March 31, 2007

 5-386-08-026-R     06/27/08     Financial Audit of the AVERT Project, USAID/India Project No. 386-0544,              84          QC
                                 Managed by the AVERT Society, for the Period from April 1, 2006, to March 31,        6           UN
                                 2007

 5-391-08-027-R     07/02/08     Financial Audit of the Aga Khan University - Examination Board (AKU-EB),
                                 USAID/Pakistan Cooperative Agreement No. 391-A-00-03-01003-00, for the
                                 Period from January 1, 2005, to December 31, 2005

 5-386-08-028-R     07/03/08     Financial Audit of the Strengthening Support Service and Institutional                2          QC
                                 Infrastructure for India’s Microfinance Sector, Award No. 386-A-00-02-00205-
                                 00, Managed by Sa-Dhan (Societies Registered under the Andhra Pradesh
                                 Telengana Area, Public Societies Registration Act 1350), for the Period from
                                 April 1, 2006, to March 31, 2007

 5-391-08-029-R     08/15/08     Closeout Audit of the Enterprise Development Facility Program, Cooperative
                                 Agreement No. 391-A-00-03- 01010-00, Managed by the Pakistan Poverty
                                 Alleviation Fund (PPAF) for the Period from July 1, 2006, to September 30, 2007

 5-391-08-030-R     08/27/08     Closeout Audit of the Programs Titled “Rewarding Innovation at the District          222         QC
                                 Level,” USAID/Pakistan Cooperative Agreement No. 391-A-00-03-01015-00 for            222         UN
                                 the Period from July 1, 2005 to March 31, 2006, and “Establishing Tent Schools
                                 and Cash for Work Program,” Grant Agreement No. 391-G-00-06-0169-00
                                 for the Period from December 9, 2005, to June 15, 2006; Managed by Rural
                                 Support Programmes Network (RSPN)

 5-492-08-031-R     09/17/08     Financial Audit of the Program Titled “Targeted Intervention in Economic             583         QC
                                 Reform and Governance - Institutional Grant for Policy Development,” USAID/           1          UN
                                 Philippines Cooperative Agreement No. 492-A-00- 04-00025-00 with De
                                 La Salle University, Inc. (DLSU), Managed by the Principal Partner Philippine
                                 Exporters Confederation, Inc. (PhilExport), for the Period from June 1, 2006, to
                                 May 31, 2007

 5-391-08-032-R     09/19/08     Financial Audit of the Program Titled “Improved Pakistani Family Planning and
                                 Reproductive Health Services,” USAID/Pakistan Cooperative Agreement No.
                                 391-A-00- 03-01016-00, Managed by the Greenstar Social Marketing Pakistan
                                 (Guarantee) Limited (Greenstar), for the Period From July 1, 2004, to June 30,
                                 2005

 5-386-08-033-R     09/24/08     Closeout Financial Audit of the Condom Social Marketing Project -                    295         QC
                                 Maharashtra, Project No. 386-A-00-05-00107-00, Managed by Hindustan Latex            232         UN
                                 Family Planning Promotion Trust (HLFPPT), for the Period from April 15, 2005,
                                 to January 31, 2007

BU – Better Use of Funds • QC – Questioned Costs • UN – Unsupported Costs • Note: UN is part of QC


36 OFFICE OF INSPECTOR GENERAL SEMIANNUAL REPORT TO THE CONGRESS	                                                              Appendix A
                                                                                                               Amount
                                                                                                                  of
   Report         Date of                                                                                      Findings     Type of
   Number         Report                                     Report Title                                      ($000s)      Findings

 5-391-08-034-R   09/25/08   Financial Audit of the Program Titled “Improved Pakistani Family Planning and
                             Reproductive Health Services,” USAID/Pakistan Cooperative Agreement No.
                             391-A-00- 03-01016-00, Managed by the Greenstar Social Marketing Pakistan
                             (Guarantee) Limited (Greenstar), for the Period From July 1, 2005, to June 30,
                             2006

 5-391-08-035-R   09/26/08   Financial Audit of the Program Titled “Improved Pakistani Family Planning and
                             Reproductive Health Services,” USAID/Pakistan Cooperative Agreement No.
                             391-A-00- 03-01016-00, Managed by the Greenstar Social Marketing Pakistan
                             (Guarantee) Limited (Greenstar), for the Period From July 1, 2006, to June 30,
                             2007

 5-367-08-036-R   09/30/08   Financial Audit of the Program Enhancement of Emergency Response (PEER),              5           QC
                             USAID/Nepal Cooperative Agreement No. 367-A-00-03-00075-00, Managed by
                             the National Society for Earthquake Technology-Nepal (NSET), for the Period
                             From October 1, 2006, to September 30, 2007

 6-263-08-004-R   05/14/08   Audit of Alexandria Business Association, Small and Micro Enterprises Project,
                             Under Cooperative Agreement No. 263-A-00-02-00005-00, for the Period
                             From January 1, 2006, to December 31, 2006

 6-263-08-005-R   06/10/08   Close-out Audit of USAID/Egypt Resources Managed by Ministry of Health and           166          QC
                             Population/Epidemiology Surveillance Unit, Infectious Disease Surveillance and
                             Response, Grant Agreement No. 263-0287.03, Implementation Letter No. 1, for
                             the Period From January 1, 2006, to March 31, 2007

 6-278-08-006-R   06/11/08   Audit of the Fund Accountability Statement of USAID Resources Managed by
                             Business Development Center Under Cooperative Agreement Number 278-
                             A-00-06- 00311-00, “TATWEER” Program, for the Period From December 1,
                             2006, to November 30, 2007

 6-263-08-007-R   06/22/08   Audit of the Fund Accountability Statement of the American Chamber of
                             Commerce in Egypt, USAID Funded Grant Agreement No. 263-G-00-06-
                             00001-00, Trade Related Assistance Center Project, for the Period From
                             October 5, 2005, to December 31, 2006

 6-263-08-008-R   07/16/08   Audit of the Fund Accountability Statement of the American Chamber of
                             Commerce in Egypt, Trade Related Assistance Center, Grant Agreement No.
                             263-G-00-06- 00001-00, for the Period From January 1, 2007, to December 31,
                             2007

 6-263-08-009-R   07/24/08   Audit of the Ministry of Foreign Trade and Industry, Industry and Trade
                             Advisory Support Unit, Implementation Letter No. Five, Agreement Number
                             263-0284, for the Period From September 1, 2005, Through December 31, 2006

 6-263-08-010-R   09/28/08   Financial Audit of the State Information Service/Information, Education, and
                             Communication Center, Under Implementation Letter No. 1, USAID Strategic
                             Objective Grant Agreement No. 263-0287, “Healthier Planned Families,”
                             Communication for Healthy Living Activity No. 263-0287.05, for the Period
                             From October 1, 2004 through September 30, 2006

                                BU – Better Use of Funds • QC – Questioned Costs • UN – Unsupported Costs • Note: UN is part of QC


Appendix A	                                                                                            April 1 – September 30, 2008 37
                                                                                                             Amount
                                                                                                                of
    Report          Date of                                                                                  Findings    Type of
    Number          Report                                      Report Title                                 ($000s)     Findings

 6-294-08-010-N     05/29/08     Close-Out Audit of the Fund Accountability Statement of USAID Resources
                                 Managed by Palestine Trade Center, Under Cooperative Agreement No. 294-A-
                                 00-04-00214- 00, “Trade Promotion Program in the West Bank and Gaza,” for
                                 the Period From September 20, 2005, to September 19, 2006

 6-294-08-013-N     07/10/08     Close-Out Audit of MASSAR Associates Subcontract DFD-I-800-04-00171-01,
                                 Costs Under Chemonics International Inc. Contract No.
                                 DFD-I-800-04-00171-00, With USAID, Supporting Rule of Law Reform Project
                                 (ARKAN), for the Period From October 1, 2005, to September 27, 2007

 6-294-08-014-N     07/14/08     Examination Procedures Related to Resources Provided to the Palestinian       84          QC
                                 Authority Through the Ministry of Finance Under the Cash Transfer Grant
                                 Agreement Dated July 16, 2003, “USAID Activity Number 294-W-008,” for
                                 the Period From January 1, 2006, to March 31, 2006 (Ninth and Close-Out
                                 Reporting Period)

 6-294-08-017-N     08/26/08     Examination Procedures Related to Resources Provided to the Palestinian      3,394        QC
                                 Authority Through the Ministry of Finance Under the Cash Transfer Grant
                                 Agreement Dated August 8, 2005, “USAID Grant Agreement No. 294- 0014.40,”
                                 for the Period From August 8, 2005, to March 31, 2006 (Final Close-Out
                                 Report)

 6-294-08-021-N     09/28/08     Examination of Saqqa and Khoudary’s Compliance with Terms and Conditions      54          QC
                                 of USAID Contract No. 294-C-00- 02-00231-00, “Coastal Aquifer Management
                                 Program,” for the Period From August 22, 2002, to September 27, 2004

 6-294-08-022-N     09/28/08     Examination of Saqqa and Khoudary’s Compliance with Terms and Conditions
                                 of USAID Contract No. 294-C-00- 04-00225-00, “Eastern Hebron Bulk Water
                                 Supply-Piping Installation-Package 4A,” for the Period From September 29,
                                 2004, to December 31, 2006

 6-294-08-025-N     09/29/08     Audit of the Cost Representation Statement of USAID Resources Managed by
                                 Arabtech Jardaneh/Palestine, Under Subcontract Agreement With CH2M HILL
                                 Contract No. 294-C-00-00-00063-00, “Water Resources Program (Phase III),”
                                 for the Period From June 1, 2005, to June 30, 2006

 6-294-08-026-N     09/29/08     Audit of the Cost Representation Statement of USAID Resources Managed by
                                 Community Development Group, Under Subcontract Agreement With CH2M
                                 HILL Contract No. 294-C-00-00-00063-00, “Water Resources Program (Phase
                                 III),” for the Period From June 1, 2005, to June 30, 2006

 7-641-08-003-R     04/28/08     Audit of the USAID Resources Managed by the Ghana Center for Democratic
                                 Development under Agreement Nos. 641-A-00-02-00020, 641-A-00-04-00284,
                                 and 641-A-00-05-0012 in Ghana for the Period Ended December 31, 2005

 7-624-08-004-R     06/30/08     Consolidated Audit of USAID and Other Donor Resources Granted to the          41          QC
                                 Permanent Interstate Committee for Drought Control in the Sahel for the       34          UN
                                 Period January 1, 2006 to December 31, 2006

BU – Better Use of Funds • QC – Questioned Costs • UN – Unsupported Costs • Note: UN is part of QC




38 OFFICE OF INSPECTOR GENERAL SEMIANNUAL REPORT TO THE CONGRESS	                                                       Appendix A
                                                                                                            Amount
                                                                                                               of
   Report         Date of                                                                                   Findings      Type of
   Number         Report                                    Report Title                                    ($000s)       Findings

 7-620-08-005-R   07/24/08   Audit of the Fund Accountability Statement for Society for Family under
                             the Health Integrated Reproductive Health (IRHIN) Project No. 620-A-00-
                             05-00098-00 and the Comprehensive Integrated Approach to HIV/AIDS
                             Prevention and Care (CIHPAC) Project No. 620-A-00-05- 00100-00 in Nigeria
                             for the Period December 26, 2005 to December 25, 2006

 7-624-08-002-N   09/30/08   Closeout Audit of the Fund Accountability Statement of the USAID Resources        294          QC
                             Managed by the West African Health Organization in Burkina Faso under             142          UN
                             Program No. 688-G-00-03-00126-00 for the 42-Month Period to March 31,
                             2007

 8-118-08-014-R   04/02/08   Audit of USAID-Funded Programs Implemented by ANO Internews Russia in
                             2006

 8-118-08-015-R   04/02/08   Audit of USAID-Funded Programs Implemented by Educated Media Foundation
                             in 2007

 8-118-08-016-R   04/07/08   Audit of USAID-Funded Programs Implemented by the Foundation for
                             Independent Radio Broadcasting in 2006

 8-118-08-017-R   04/10/08   Audit of USAID-Funded Program Implemented by “Golos” Association of
                             Non-Profit Organizations in Defense of Voter Rights for the Period ended May
                             4, 2007

 8-186-08-018-R   04/24/08   Audit of USAID-Funded Program Implemented by the Ministry of Foreign              149          QC
                             Affairs MASHAV for the Period ended May 31, 2004                                  149          UN

 8-118-08-019-R   04/28/08   Audit of USAID-Funded Program Implemented by IPO Junior Achievement
                             Russia for the Year Ending December 31, 2006

 8-118-08-020-R   05/19/08   Audit of USAID-Funded Program Implemented by the Moscow Helsinki Group
                             in 2006

 8-118-08-021-R   05/16/08   Audit of USAID-Funded Program Implemented by the Institute for the
                             Economy in Transition in 2006

 8-118-08-022-R   05/19/08   Audit of USAID-Funded Program Implemented by the Regional Society of               1           QC
                             Disabled People “PERSPECTIVA” in 2006

 8-118-08-023-R   05/21/08   Audit of USAID-Funded Programs Implemented by the Moscow School of
                             Political Studies in 2006

 8-121-08-024-R   05/29/08   Audit of USAID-Funded Programs Implemented by the International Charitable
                             Organization “Center for Ukrainian Reform Education” for the Year Ended
                             2006

 8-118-08-025-R   05/29/08   Audit of USAID-Funded Programs Implemented by the Institute for Urban
                             Economics in 2006

                                BU – Better Use of Funds • QC – Questioned Costs • UN – Unsupported Costs • Note: UN is part of QC




Appendix A	                                                                                         April 1 – September 30, 2008 39
                                                                                                                  Amount
                                                                                                                     of
    Report          Date of                                                                                       Findings    Type of
    Number          Report                                       Report Title                                     ($000s)     Findings

 8-000-08-026-R     06/02/08     Audit of ACTED, Under USAID Agreement No. 386-G- 00-05-00214, for the
                                 Fiscal Year 2006

 8-000-08-027-R     06/02/08     Audit of Four USAID Awards to Medair for 2006: DFD-A- 00-04-
                                 00073-00, DFD-G-00-06-000216-00, DFD-G-00-06- 000115-00, and
                                 DFD-G-00-04-00156-00

 8-000-08-028-R     06/02/08     Audit of the Association Handicap International, Under Multiple USAID
                                 Agreements in 2006

 8-000-08-029-R     06/04/08     Audit of the Christian Aid, Under Multiple USAID Agreements for the Year
                                 Ended March 31, 2006

 8-000-08-030-R     06/04/08     Audit of the Christian Aid, Under Multiple USAID Agreements for the Year
                                 Ended March 31, 2007

 8-121-08-031-R     06/04/08     Audit of USAID-Funded Programs Implemented by the Voluntary Union of
                                 Local Governments “Association of Ukrainian Cities and Communities” for the
                                 Year Ended December 31, 2006

 8-121-08-032-R     06/06/08     Audit of USAID/Funded Programs Implemented by the Municipal Development
                                 Institute for the Sixteen Months Ended December 31, 2006

 8-165-08-033-R     06/06/08     Audit of the Foundation Open Society Institute - Macedonia, Under Multiple
                                 USAID Agreements in 2006

 8-194-08-034-R     06/09/08     Audit of USAID-Funded Programs Implemented by the Open Society Institute
                                 Budapest, for the Year Ended December 31, 2005

 8-194-08-035-R     06/11/08     Audit of USAID-Funded Programs Implemented by the Open Society Institute
                                 Budapest, for the Year Ended December 31, 2006

 8-000-08-036-R     06/11/08     Audit of the Veterinaires Sans Frontieres, Under Two USAID Agreements in           515         QC
                                 2006                                                                               481         UN

 8-000-08-037-R     06/11/08     Audit of the Tuberculosis Coalition for Technical Assistance, under USAID         1,279        QC
                                 Award No. HRN-A-00-00- 00018-00, in 2006                                          1,279        UN

                                          —LOCAL CURRENCY TRUST FUND—

 5-497-08-004-N     08/15/08     Financial Audit of the USAID/Indonesia’s Rupiah Trust Fund for the Years Ended
                                 September 30, 2006 and 2007

                                              —U.S.-BASED CONTRACTORS—

 0-000-08-017-D     08/27/08     PA Government Services, Inc., Report on Audit of Fiscal Year 2001 Incurred
                                 Costs (Revised)

BU – Better Use of Funds • QC – Questioned Costs • UN – Unsupported Costs • Note: UN is part of QC




40 OFFICE OF INSPECTOR GENERAL SEMIANNUAL REPORT TO THE CONGRESS	                                                            Appendix A
                                                                                                                    Amount
                                                                                                                       of
   Report         Date of                                                                                           Findings      Type of
   Number         Report                                      Report Title                                          ($000s)       Findings

 0-000-08-024-D   06/12/08   The Louis Berger Group, Inc. - International, Report on Noncompliance
                             with CAS 405 Found During Follow-up Audit of Accounting System Internal
                             Controls

 0-000-08-028-D   05/30/08   Montgomery Watson Harza Energy and Infrastructure (formerly Harza                        1,492         QC
                             Engineering Company), Report on Audit of Fiscal Year 2002 Incurred Costs                 1,492         UN

 0-000-08-032-D   06/03/08   Montgomery Watson Harza Energy and Infrastructure (formerly Harza                        5,182         QC
                             Engineering Company)                                                                     5,182         UN

 0-000-08-033-D   05/02/08   Logical Technical Services Corporation, Report on Audit of Fiscal Years 2000
                             and 2001 Incurred Costs

 0-000-08-034-D   05/02/08   Bankworld, Inc., Report on Audit of Fiscal Year 2004 Incurred Costs

 0-000-08-035-D   05/15/08   Financial Markets International, Inc., Report on Audit of Post-Award Accounting
                             System

 0-000-08-036-D   05/13/08   Creative Associates International, Inc., Report on Audit of Fiscal Year 2003              38           QC
                             Incurred Costs                                                                            38           UN

 0-000-08-037-D   05/12/08   Associates for International Resources and Development, Inc., Report on Audit
                             of Fiscal Year 2003, 2004, and 2005 Incurred Costs

 0-000-08-038-D   05/12/08   Metcalf & Eddy, Inc., Report on Audit of CAS 418 Compliance

 0-000-08-039-D   05/28/08   Jorge Scientific Corporation, Report on Audit of Fiscal Years Ended February
                             28, 2005 and December 31, 2005

 0-000-08-040-D   05/21/08   Abt Associates, Inc., Report on Audit of Fiscal Year 2003 Incurred Costs                  54           QC
                                                                                                                       31           UN

 0-000-08-041-D   05/29/08   TCG International, LLC, Report on Audit of Fiscal Years 2000, 2001 and 2002
                             Incurred Costs

 0-000-08-042-D   05/14/08   Bankworld, Inc., Report on Audit of Fiscal Year 2005 Incurred Costs

 0-000-08-043-D   05/14/08   IBM Global Business Services, Public Sector - Federal Report on Audit of
                             Calendar Year 2005 Incurred Costs

 0-000-08-044-D   05/15/08   Abt Associates, Inc., Report on Evaluation of Labor Floor Check, Fiscal Year
                             2008

 0-000-08-045-D   09/25/08   John Snow, Inc., JSI Corporate Home Office, Report on Adequacy of Initial
                             Disclosure Statement Dated October 26, 2007 with Effective Date of January
                             1, 2005

                                BU – Better Use of Funds • QC – Questioned Costs • UN – Unsupported Costs • Note: UN is part of QC




Appendix A	                                                                                                 April 1 – September 30, 2008 41
                                                                                                                  Amount
                                                                                                                     of
    Report          Date of                                                                                       Findings    Type of
    Number          Report                                       Report Title                                     ($000s)     Findings

 0-000-08-046-D     09/25/08     John Snow, Inc. (JSI), Report on Adequacy of Disclosure Statement Revision 3
                                 Dated November 10, 2006 and Its Replacement, Disclosure Statement Revision
                                 4, Dated December 31, 2007 with Effective Date of January 1, 2005

 0-000-08-047-D     06/12/08     Social & Scientific Systems, Inc., Report on Audit of Costs Booked and Billed      462         QC
                                 Under Contract No. GPO-C-00-06- 00002-00 for the Period of February 24,
                                 2006 through June 30, 2007

 0-000-08-048-D     09/29/08     Mendez England and Associates, Supplement to Report on Audit of Fiscal Year
                                 1998 Incurred Costs

 0-000-08-049-D     07/25/08     Management Sciences for Development, Inc., Supplement to Report on Audit of        263         QC
                                 Fiscal Year 1998 Incurred Costs                                                    263         UN

 0-000-08-050-D     07/25/08     Management Sciences for Development, Inc., Supplement to Report on Audit of        632         QC
                                 Fiscal Year 1999 Incurred Costs                                                    632         UN

 0-000-08-051-D     09/11/08     Deloitte Touche Tohmatsu Emerging Markets Group, Ltd., Supplemental Report
                                 on Incurred Costs for Fiscal Year 1998

 0-000-08-054-D     09/23/08     Camp Dresser & McKee, Inc. – Corporate, Report on Noncompliance with
                                 CAS 405 Accounting for Unallowable Costs

 0-000-08-055-D     09/23/08     Camp Dresser & McKee, Inc. – Corporate, Report on Audit of Incurred Costs         1,807        QC
                                 for Fiscal Years 2003 and 2004

 0-000-08-056-D     09/23/08     Camp Dresser & McKee – International, Report on Audit of Incurred Costs for        36          QC
                                 Fiscal Years 2003 and 2004

 0-000-08-058-D     09/23/08     Management Sciences for Development, Inc., Supplement to Report on Audit of        259         QC
                                 Fiscal Year 2000 Incurred Costs                                                    259         UN

 0-000-08-059-D     09/29/08     Mendez England and Associates, Supplement to Report on Audit of Fiscal Year        19          QC
                                 1999 Incurred Costs

 5-306-08-003-D     05/16/08     Audit of Costs Incurred in the United States by The Louis Berger Group, Inc.       847         QC
                                 to Implement the Rehabilitation of Economic Facilities and Services Program,        26         UN
                                 USAID/Afghanistan Contract No. 306-C-00-02-00500-00, for the Period from
                                 July 1, 2006, to December 31, 2006

 5-492-08-001-O     06/17/08     Report on Agreed-Upon Procedures Performed on Local Costs Incurred by              209         QC
                                 Chemonics International, Inc. to Implement the Private Sector Mobilization for     180         UN
                                 Family Health Project, USAID/Philippines Contract No. 492-C-00- 04-0036-00,
                                 for the Period From September 16, 2004, to December 31, 2006

BU – Better Use of Funds • QC – Questioned Costs • UN – Unsupported Costs • Note: UN is part of QC




42 OFFICE OF INSPECTOR GENERAL SEMIANNUAL REPORT TO THE CONGRESS	                                                            Appendix A
                                                                                                                 Amount
                                                                                                                    of
    Report        Date of                                                                                        Findings     Type of
    Number        Report                                      Report Title                                       ($000s)      Findings

 6-294-08-008-N   05/13/08   Close-Out Audit of the Cost Representation Statement of USAID Resources
                             Managed by Chemonics International Inc. Contract No. DFD-I-800-04-00171-00,
                             Supporting Rule of Law Reform Project, Covering Locally Incurred Costs for the
                             Period from October 1, 2005, to September 27, 2007

 6-294-08-009-N   05/29/08   Audit of the Cost Representation Statement of Locally- Incurred Costs of              270          QC
                             USAID Resources Managed by CARANA Corporation Under Contract No.
                             AFP-I-01-03-00020-00, “Palestinian Agribusiness Partnership Activity” Project,
                             for the Period From April 8, 2005, to April 7, 2006

 6-294-08-011-N   06/09/08   Audit of the Fund Accountability Statement of USAID Resources Managed                  8           QC
                             by the Academy for Educational Development, Cooperative Agreement No.
                             294-A-00-06-00210-00, Small and Microfinance Assistance for Recovery and
                             Transition Program, for the Period From October 1, 2006, to September 30,
                             2007

 6-263-08-016-N   07/30/08   Financial Audit of Transcentury Associates, USAID Contract No. 263-05-00-              89          QC
                             00035-00, for the Period From October 1, 2005, Through December 31, 2006               14          UN

 6-294-08-023-N   09/29/08   Audit of the Cost Representation Statement of USAID Resources Managed by
                             CH2M HILL, Under Contract No. 294-C-00-00-0063-00, “Water Resources
                             Program (Phase III),” for the Period From October 1, 2004, to June 30, 2006

 6-294-08-024-N   09/29/08   Audit of the Cost Representation Statement of USAID Resources Managed
                             by Montgomery Watson Americas, Inc., Under Subcontract Agreement With
                             CH2M HILL Contract No. 294-C-00-00-00063-00, “Water Resources Program
                             (Phase III),” for the Period From June 1, 2005, to June 30, 2006

 E-267-08-009-D   04/15/08   Audit of Costs Incurred and Billed by BearingPoint, Inc. under Contract No.            36          QC
                             267-C-00-04-00405-00 for the Period October 1, 2006 through September 30,              28          UN
                             2007

 E-267-08-012-D   05/27/08   Audit of Costs Incurred and Billed by The Louis Berger Group, Inc. under
                             Contract No. 267-C-00-04-00435-00 from October 1, 2006 through
                             September 30, 2007

 E-267-08-013-D   07/06/08   Audit of the Subcontract Costs Submitted by Sallyport Global Services Ltd.
                             (Sallyport) for Security Services and Life Support Services under USAID Prime
                             Contract No. 267-C-00-04-00435-00 with The Louis Berger Group, Inc. for the
                             period October 1, 2006 through September 30, 2007

                                               —U.S. BASED GRANTEES—

 0-000-08-005-E   04/30/08   Report on Audit of the Southern Africa Enterprise Development Fund for the
                             Fiscal Years Ended September 30, 2003 and 2002

                                BU – Better Use of Funds • QC – Questioned Costs • UN – Unsupported Costs • Note: UN is part of QC




Appendix A	                                                                                             April 1 – September 30, 2008 43
                                                                                                                    Amount
                                                                                                                       of
    Report          Date of                                                                                         Findings    Type of
    Number          Report                                        Report Title                                      ($000s)     Findings

 0-000-08-006-E     04/30/08     Report on Audit of the Southern Africa Enterprise Development Fund for
                                 the Fiscal Years Ended September 30, 2005 and 2004, and Report on Audit of
                                 the Southern Africa Enterprise Development Fund for the Fiscal Year Ended
                                 September 30, 2004 and 2003

 0-000-08-007-E     04/30/08     Report on Audit of the Southern Africa Enterprise Development Fund for the
                                 Fiscal Years Ended September 30, 2006 and 2005

 0-000-08-008-E     04/30/08     Report on Audit of the Southern Africa Enterprise Development Fund for the
                                 Fiscal Year Ended September 30, 2007

 0-000-08-009-E     05/21/08     Report on Audit of the Central Asian-American Enterprise Fund for the Fiscal
                                 Years Ended September 30, 2004 and 2003

 0-000-08-010-E     05/21/08     Report on Audit of the Central Asian-American Enterprise Fund for the Fiscal
                                 Years Ended September 30, 2005 and 2004

 0-000-08-011-E     05/21/08     Report on Audit of the Central Asian-American Enterprise Fund for the Fiscal
                                 Years Ended September 30, 2006 and 2005

 0-000-08-012-E     05/21/08     Report on Audit of the Central Asian-American Enterprise Fund for the Fiscal
                                 Years Ended September 30, 2007 and 2006

 0-000-08-013-E     05/29/08     Report on Audit of the Western NIS Enterprise Fund for the Fiscal Years Ended
                                 September 30, 2006 and 2005

 0-000-08-014-E     05/29/08     Report on Audit of the Western NIS Enterprise Fund for the Fiscal Years Ended
                                 September 30, 2007 and 2006

 0-000-08-015-E     06/20/08     Report on Audit of the Albanian-American Enterprise Fund for the Fiscal Year
                                 Ended September 30, 2006

 0-000-08-015-T     05/30/08     Review of Mercy Corps for the Fiscal Year Ending June 30, 2007

 0-000-08-016-T     07/25/08     Review of International Rescue Committee, Inc. for the Fiscal Year Ending
                                 September 30, 2006

 0-000-08-017-T     09/15/08     Review of the Audit Report of International Republican Institute for Fiscal Year
                                 Ending September 30, 2006

 0-000-08-018-T     09/19/08     Review of the Audit Reports of JSI Research and Training Institute for the Years
                                 Ended September 30, 2006 and 2007

BU – Better Use of Funds • QC – Questioned Costs • UN – Unsupported Costs • Note: UN is part of QC




44 OFFICE OF INSPECTOR GENERAL SEMIANNUAL REPORT TO THE CONGRESS	                                                              Appendix A
                                                                                                                  Amount
                                                                                                                     of
    Report        Date of                                                                                         Findings     Type of
    Number        Report                                       Report Title                                       ($000s)      Findings

 0-000-08-019-T   09/17/08   Review of the Audit Report of International Rescue Committee, Inc. for the
                             Fiscal Year Ending September 30, 2007

 0-000-08-020-T   09/22/08   Air Serv International, Inc., A-133 Audit Reports for Fiscal Years Ending
                             December 31, 2005 and December 31, 2006

 0-000-08-021-T   09/22/08   Review of the Audit Reports of Partnership for Supply Chain Management for
                             Fiscal Year End September 30, 2007

 0-000-08-022-T   09/19/08   Review of the Audit Reports of PACT, Inc. for Fiscal Years Ended September 30,
                             2005, 2006, and 2007

 0-000-08-023-T   09/22/08   Review of the Audit Reports of International Relief and Development, Inc. for
                             Fiscal Years Ending December 31, 2005 and 2006

 0-000-08-024-T   09/22/08   Review of the Audit Reports of Alliance to Save Energy for the Fiscal Years
                             Ending December 31, 2005 and 2006

 0-000-08-052-D   07/15/08   Partnership for Supply Chain Management, Inc., Report on Review of Post
                             Award Accounting System

 6-294-08-012-N   06/25/08   Audit of USAID Resources Managed by the Agricultural Cooperative                        24          QC
                             Development International/Volunteers in Overseas Cooperative Assistance
                             Under USAID Cooperative Agreement No. 294-A-00-06-00207-00, Food
                             Security Program, for the Period From October 1, 2006, to September 30, 2007

 6-294-08-015-N   07/20/08   Audit of the Fund Accountability Statement of USAID Resources Managed
                             by World Vision, Under Cooperative Agreement No. 294-A-00-02-00226-00,
                             “Job Opportunities Through Development of Small Scale Basic Community
                             Infrastructure,” for the Period From January 1, 2007, to June 30, 2007

 6-294-08-018-N   09/15/08   Audit of the Fund Accountability Statement of USAID Resources Managed by
                             American Near East Refugee Aid, Under Cooperative Agreement No. 294-A-
                             00-05-00240- 00, Small Infrastructure Program, for the Period From September
                             27, 2005, to September 26, 2006

 6-294-08-019-N   09/23/08   Audit of the Fund Accountability Statement of USAID Resources Managed by
                             Cooperative Housing Foundation, Under Cooperative Agreement No. 294-A-
                             00-05-00242- 00, Empowerment of Palestinian Local Authorities, for the Period
                             From September 30, 2005, to September 29, 2006

 6-294-08-020-N   09/28/08   Audit of USAID Resources Managed by American Near East Refugee Aid,
                             Under Cooperative Agreement No. 294- A-00-04-00222-00, Palestinian
                             Infrastructure for Needed Employment, for the Period From September 28,
                             2004, to September 30, 2005

                                BU – Better Use of Funds • QC – Questioned Costs • UN – Unsupported Costs • Note: UN is part of QC




Appendix A	                                                                                              April 1 – September 30, 2008 45
                                                                                                               Amount
                                                                                                                  of
    Report          Date of                                                                                    Findings    Type of
    Number          Report                                      Report Title                                   ($000s)     Findings

 E-267-08-010-D     05/13/08     Audit of Costs Incurred and Billed by Agricultural Cooperative Development      39          QC
                                 International/Volunteers Overseas Cooperative Assistance (ACDI/VOCA)
                                 under Cooperative Agreement No. AFP-A-00-03-00003-00 from August 1, 2004
                                 to March 31, 2007

 E-267-08-011-D     05/20/08     Audit of Costs Incurred by Mercy Corps under USAID Cooperative                 4,750        QC
                                 Agreement No. AFP-A-00-03-00001-00 from August 1, 2004 through March 31,
                                 2007

 E-267-08-014-D     08/12/08     Audit of Costs Incurred and Billed by International Relief and Development,     45          QC
                                 Inc. Under USAID Cooperative Agreement No. AFP-A-00-03-00002-00 for the         44          UN
                                 Period November 1, 2005 Through March 31, 2007




USADF and IAF

                                                                                                               Amount
                                                                                                                  of
    Report          Date of                                                                                    Findings    Type of
    Number          Report                                      Report Title                                   ($000s)     Findings

                                                     NOTHING TO REPORT
BU – Better Use of Funds • QC – Questioned Costs • UN – Unsupported Costs • Note: UN is part of QC




46 OFFICE OF INSPECTOR GENERAL SEMIANNUAL REPORT TO THE CONGRESS	                                                         Appendix A
PERFORMANCE AUDIT REPORTS ISSUED April 1 – September 30, 2008 USAID

                                                                                                                Amount
                                                                                                                   of
    Report        Date of                                                                                       Findings     Type of
    Number        Report                                     Report Title                                       ($000s)      Findings

                                          —ECONOMY AND EFFICIENCY—

 1-521-08-004-P   04/25/08   Audit of USAID/Haiti’s Democracy and Governance Activities

 1-526-08-005-P   06/27/08   Audit of the Procurement Process for a National Identification Card and
                             Passport System Financed by the Millennium Challenge Corporation and
                             Monitored by USAID/Paraguay

 1-598-08-006-P   07/29/08   Audit of Compliance With Forward Funding Requirements By Missions in the           142,468        BU
                             Latin America and the Caribbean Bureau

 1-511-08-007-P   07/31/08   Audit of USAID/Bolivia’s Integrated Alternative Development Program

 4-696-08-003-P   04/30/08   Audit of USAID/Rwanda’s Distribution of P.L. 480 Title II Nonemergency
                             Assistance in Support of Its Direct Food Aid Distribution Program

 4-617-08-004-P   04/10/08   Audit of USAID/Uganda’s Implementation of the President’s Malaria Initiative

 4-673-08-005-P   07/31/08   Audit of Selected Partners Implementing USAID/Namibia’s President’s
                             Emergency Plan for AIDS Relief

 4-654-08-006-P   09/30/08   Audit of USAID/Angola’s Democracy and Governance Activities                          452          BU

 5-386-08-005-P   06/18/08   Audit of USAID/India’s Greenhouse Gas Pollution Prevention Project

 5-306-08-006-P   06/23/08   Audit of USAID/Afghanistan’s Small and Medium Enterprise Development
                             Activity

 5-440-08-007-P   07/07/08   Audit of USAID/Vietnam’s Procurement and Distribution of Commodities for
                             the President’s Emergency Plan for AIDS Relief

 5-492-08-008-P   07/31/08   Audit of USAID/Philippines’ Infrastructure Activities Under Its Growth With
                             Equity in Mindanao-2 Program

 5-306-08-009-P   08/08/08   Audit of USAID/Afghanistan’s Accelerating Sustainable Agriculture Program            167          QC

 5-367-08-010-P   09/26/08   Audit of USAID/Nepal’s Health Activities

 5-438-08-011-P   09/26/08   Audit of USAID/Mongolia’s Economic Policy Reform and Competitiveness
                             Project

 5-306-08-012-P   09/30/08   Audit of USAID/Afghanistan’s Capacity Development Program                           11,100        BU

 6-263-08-004-P   05/27/08   Audit of USAID/Egypt’s Microfinance Activities

 7-624-08-005-P   04/21/08   Audit of Data Quality for USAID/West Africa’s Regional Health Program

                                BU – Better Use of Funds • QC – Questioned Costs • UN – Unsupported Costs • Note: UN is part of QC


Appendix A	                                                                                            April 1 – September 30, 2008 47
                                                                                                                Amount
                                                                                                                   of
    Report          Date of                                                                                     Findings    Type of
    Number          Report                                        Report Title                                  ($000s)     Findings

 8-116-08-002-P     06/12/08     Audit of USAID’s Democracy and Governance Activities in Kyrgyzstan

 9-611-08-007-P     05/30/08     Audit of USAID/Zambia’s Procurement and Distribution of Commodities for
                                 the President’s Emergency Plan for AIDS Relief

 9-000-08-008-P     06/02/08     Audit of USAID’s Implementation of the President’s Emergency Plan for AIDS
                                 Relief

 9-000-08-009-P     08/26/08     Followup Audit of USAID’s Governmentwide Commercial Purchase Card
                                 Program

 A-000-08-005-P     05/15/08     Audit of Selected Performance-Based Task Orders for Information Technology
                                 Services

 A-000-08-006-P     09/04/08     Audit of USAID’s Implementation of Internet Protocol Version 6

 A-000-08-009-P     09/29/08     Audit of USAID’s Compliance With the Federal Information Security
                                 Management Act for Fiscal Year 2008

 E-267-08-002-P     04/03/08     Audit of USAID/Iraq’s Management of the Marla Ruzicka Iraqi War Victims Fund

 E-267-08-003-P     06/24/08     Audit of USAID/Iraq’s Management of Its Official Vehicle Fleet                  2,180        BU

 E-267-08-004-P     07/03/08     Audit of USAID/Iraq’s Monitoring and Evaluation Performance Program

 E-267-08-005-P     08/05/08     Audit of USAID/Iraq’s Community Action Program II

 E-267-08-006-P     09/30/08     Audit of USAID/Iraq’s Agribusiness Program                                      6,000        BU

BU – Better Use of Funds • QC – Questioned Costs • UN – Unsupported Costs • Note: UN is part of QC




48 OFFICE OF INSPECTOR GENERAL SEMIANNUAL REPORT TO THE CONGRESS	                                                          Appendix A
USADF

                                                                                                               Amount
                                                                                                                  of
      Report      Date of                                                                                      Findings     Type of
      Number      Report                                     Report Title                                      ($000s)      Findings

                                         —ECONOMY AND EFFICIENCY—
 7-ADF-08-006-P   06/12/08   Followup Audit of the Awarding and Monitoring of Grants by the African               188          QC
                             Development Foundation

 7-ADF-08-007-P   09/17/08   Audit of the African Development Foundation/Ghana Project Activities                1,478         QC
                                                                                                                  128          UN

 A-ADF-08-008-P   09/23/08   Audit of United States African Development Foundation’s Compliance With
                             Provisions of the Federal Information Security Management Act for Fiscal Year
                             2008




IAF

                                                                                                               Amount
                                                                                                                  of
      Report      Date of                                                                                      Findings     Type of
      Number      Report                                     Report Title                                      ($000s)      Findings

                                         —ECONOMY AND EFFICIENCY—
 A-IAF-08-007-P   09/11/08   Audit of Inter-American Foundation’s Compliance With Provisions of the
                             Federal Information Security Management Act for Fiscal Year 2008

                               BU – Better Use of Funds • QC – Questioned Costs • UN – Unsupported Costs • Note: UN is part of QC




Appendix A	                                                                                           April 1 – September 30, 2008 49
MISCELLANEOUS REPORTS ISSUED April 1 – September 30, 2008 USAID

                                                                                                                Amount
                                                                                                                   of
    Report          Date of                                                                                     Findings    Type of
    Number          Report                                      Report Title                                    ($000s)     Findings

                                            —QUALITY CONTROL REVIEWS—
 1-511-08-001-Q     05/28/08     Quality Control Review of Audit Report and Work Papers Related to the
                                 Federacion de Asociaciones Municipales de Bolivia Under Cooperation
                                 Agreement No. 511-A-00-04- 00207, for the Period August 16, 2004 to April
                                 28, 2006

 1-511-08-002-Q     06/04/08     Quality Control Review of Audit Report and Work Papers Related to the
                                 Asociacion de Proteccion a la Salud Santa Cruz – Bolivia, Social Marketing
                                 – Cooperation Agreement No. 511-A-00-02-00295-00 and Partners for the
                                 Development – Cooperation Agreement No. 511-A-00-02- 00261-00, for the
                                 Period January 1 to December 31, 2006

 1-511-08-003-Q     06/24/08     Independent Auditor’s Report of Grant Agreement USAID No. 511-A-00-02-
                                 00282-00 Program for Cleaner Production for Industry and Service Sectors
                                 Managed by Centro de Promocion de Tecnologias Sostenibles, for the Year
                                 Ended December 31, 2006

 1-511-08-004-Q     06/25/08     Independent Auditor’s Report for the Period From January 1 to December 31,
                                 2006; Research, Studies and Services Center Cooperative Agreements USAID
                                 No. 511- A-00-98-00158-00 and USAID No. 511-A-00-04-00298-00

 1-522-08-005-Q     06/30/08     Closeout Audit of USAID Resources Managed by Instituto Nacional
                                 de Estadistica Under Grant Agreement No. 522- 0433, Project for the
                                 Performance of the Demographic and Health Poll, for the Period August 10,
                                 2005 to September 30, 2007

 1-522-08-006-Q     07/03/08     Audit Report No. 1-522-08-033-R, Financial Statements Audit of the Expanding
                                 Access to Family Planning for Marginalized Rural Populations Program, USAID
                                 Cooperative Agreement No. 522-G-00-06-000304-00, Managed by Asociacion
                                 Hondurena de Planificacion de Familia, for the Period From January 1 to
                                 December 31, 2006

 1-511-08-007-Q     07/03/08     Quality Control Review of Audit Report and Working Papers for the
                                 Independent Auditor’s Report on the Rural Roads Program, Integral
                                 Development Program, Under USAID Grant Agreement No. 511-0660 for the
                                 Year January 1, 2006 to December 31, 2006

 1-523-08-008-Q     08/12/08     Quality Control Review of Audit Report and Work Papers Related to the
                                 Report on the Fund Accountability Statement in Accordance With the
                                 Agreement Made Between the Mexican Nature Conservation Fund and the
                                 United States Agency for International Development for the National Enabling
                                 Environment for Mexico Program for the Period January 1, 2006 to February
                                 28, 2007

BU – Better Use of Funds • QC – Questioned Costs • UN – Unsupported Costs • Note: UN is part of QC




50 OFFICE OF INSPECTOR GENERAL SEMIANNUAL REPORT TO THE CONGRESS	                                                          Appendix A
                                                                                                            Amount
                                                                                                               of
   Report        Date of                                                                                    Findings     Type of
   Number        Report                                     Report Title                                    ($000s)      Findings

1-522-08-009-Q   08/12/08   Quality Control Review of Audit Report and Work Papers Related to the
                            Closeout Audit of the Project “Support and Strengthening of the Small and
                            Medium Handcrafts Producers,” USAID/Honduras Cooperative Agreement No.
                            522-A-00-04-00464-00, Managed by Fundacion AMBOS for the Period October
                            1, 2004 to February 28, 2007

1-522-08-010-Q   08/29/08   Quality Control Review of Audit of USAID Resources for the Program to
                            Strengthening of Democratic Processes in Honduras, Cooperative Agreement
                            No. 522-A-00-06- 00302-00 Administered by the Federacion de Organizaciones
                            Para el Desarrollo de Honduras From October 1, 2005 Through September 30,
                            2006

1-522-08-011-Q   08/29/08   Quality Control Review of the Financial Statement Audit of the Central
                            American Centers of Excellence for Teacher Training Program Cooperative
                            Agreement No. 522-A-00- 02-00348-00, Managed by Universidad Pedagogica
                            Nacional Francisco Morazan, for the Year Ended September 30, 2006

4-663-08-003-Q   06/17/08   Quality Control Review of the Audit of the Ethiopian Orthodox Church
                            Development and Inter-Church Aid Commission Under the USAID Food
                            Security Program P.L. 480 Title II Development Activity Proposal, Cooperative
                            Agreement No. FSP-A-00-98-00032-05, for the Year Ended December 31, 2003

4-663-08-004-Q   06/17/08   Quality Control Review of the Closeout Audit of the Ethiopian Orthodox
                            Church Development and Inter-Church Aid Commission Under the USAID
                            Food Security Program P.L. 480 Title II Development Activity Proposal,
                            Cooperative Agreement No. FSP-A-00-98-00032-05, for the Year Ended
                            December 31, 2004

4-674-08-005-Q   06/19/08   Quality Control Review of the Audit of Umalusi Council for Quality Assurance
                            in General and Further Education and Training Under USAID Bilateral
                            Grant Agreement No. 674- 0302-G-00-5031, for the Period April 1, 2003 to
                            September 30, 2005

5-442-08-005-Q   06/06/08   Quality Control Review of the Audit Report and Audit Documentation for the
                            Financial Audit Conducted by PricewaterhouseCoopers (Cambodia) Ltd., of
                            USAID Funds Managed by the Khmer HIV/AIDS NGO Alliance, for the Year
                            Ended December 31, 2006

5-442-08-006-Q   06/24/08   Quality Control Review of the Audit Report and Audit Documentation for
                            the Financial Audit Conducted by KPMG Cambodia Ltd. of USAID/Cambodia
                            Cooperative Agreement No. 493-A-00-04-00005-00, Managed by Reproductive
                            and Child Health Alliance, for the Year Ended December 31, 2006

5-497-08-007-Q   08/15/08   Quality Control Review of the Audit Report and Audit Documentation for the
                            Financial Audit of USAID/Indonesia’s Rupiah Trust Fund for the Years Ended
                            September 30, 2006 and 2007

                               BU – Better Use of Funds • QC – Questioned Costs • UN – Unsupported Costs • Note: UN is part of QC




Appendix A	                                                                                         April 1 – September 30, 2008 51
                                                                                                                 Amount
                                                                                                                    of
   Report           Date of                                                                                      Findings    Type of
   Number           Report                                       Report Title                                    ($000s)     Findings

5-497-08-008-Q      08/26/08     Quality Control Review of the Audit Report and Audit Documentation
                                 Prepared by Jimmy Budhi & Rekan of Its Financial Audit Conducted of
                                 Development Alternatives, Inc. Relating to the Specified Line Items of the
                                 Statement of Costs Incurred and Billed Under USAID/Indonesia Contract No.
                                 DOT-I-03-800-00004-00, Task Order No. 800, “Support a Peaceful Process of
                                 Democratization in Indonesia,” for the Period From August 1, 2004 to January
                                 31, 2007

6-263-08-001-Q      04/29/08     Quality Control Review of Audit of USAID Resources Managed and
                                 Expenditures Incurred by Ministry of Health and Population/Epidemiology
                                 Surveillance Unit (ESU) Infectious Disease Surveillance and Response, USAID/
                                 Egypt Grant Agreement No. 263-0287.03, Implementation Letter No. 1 for the
                                 Period From January 1, 2006, to March 31, 2007

6-263-08-002-Q      07/10/08     Quality Control Review of Audit of Ernst & Young Audit Report Covering the
                                 American Chamber of Commerce in Egypt, Trade Related Assistance Center,
                                 Financial Audit of the Fund Accountability Statement of the Grant Agreement
                                 No. 263-G-00-06-00001-00 With USAID/Egypt for the Period From January 1,
                                 2007, to December 31, 2007

7-685-08-001-Q      04/01/08     Quality Control Review of AMCS for the Audit of the USAID Resources
                                 Managed by ASACASE Under the Sustainable Increase of Income Generating
                                 Activities in Selected Sectors (No 685-A-00182-00) for the Period August 2001
                                 to August 2004 and the Casamance Recovery Development Program (No. 685-
                                 A-00-03-00104) in Senegal for the Period August 2003 to November 2005

0-000-08-002-Q      04/08/08     Quality Control Review of PricewaterhouseCooper LLP’s Audit of CARE, Inc.
                                 Fiscal Year Ended June 30, 2005

0-000-08-003-Q      04/30/08     Quality Control Review of KPMG LLP Audit of National Democratic Institute
                                 for International Affairs for the Fiscal Year Ended September 30, 2006

0-000-08-004-Q      07/08/08     Quality Control Review of McGladrey & Pullen, LLP’s Audit of International
                                 Republican Institute, Fiscal Year Ended September 30, 2006

0-000-08-005-Q      09/18/08     Quality Control Review of PriceWaterhouseCoopers, LLP’s Audit of Research
                                 Triangle Institute, Fiscal Year Ended September 30, 2006

0-000-08-006-Q      09/29/08     Quality Control Review of KPMG LLP Audit of International Rescue
                                 Committee for the Fiscal Year Ended September 30, 2006

                                                             —OTHER—
6-294-08-001-S      09/11/08     Information on Status and Results of the First 120 Financial Audits of USAID/
                                 West Bank and Gaza Activities in Accordance with the Statutory Requirements
                                 of the Appropriations Acts of 2003, 2004, 2005, 2006 and 2007

BU – Better Use of Funds • QC – Questioned Costs • UN – Unsupported Costs • Note: UN is part of QC




52 OFFICE OF INSPECTOR GENERAL SEMIANNUAL REPORT TO THE CONGRESS	                                                           Appendix A
USADF and IAF

                                                                                                 Amount
                                                                                                    of
    Report      Date of                                                                          Findings       Type of
    Number      Report                            Report Title                                   ($000s)        Findings

                                       NOTHING TO REPORT
                          BU – Better Use of Funds • QC – Questioned Costs • UN – Unsupported Costs • Note: UN is part of QC




Appendix A	                                                                            April 1 – September 30, 2008 53
AFGHANISTAN AND IRAQ AUDIT REPORTS ISSUED April 1 – September 30, 2008 USAID

                                                                                                                 Amount
                                                                                                                    of
    Report          Date of                                                                                      Findings    Type of
    Number          Report                                       Report Title                                    ($000s)     Findings

                                                       —AFGHANISTAN—
 5-306-08-003-D     05/16/08     Audit of Costs Incurred in the United States by The Louis Berger Group, Inc.      847         QC
                                 to Implement the Rehabilitation of Economic Facilities and Services Program,       26         UN
                                 USAID/Afghanistan Contract No. 306-C-00-02-00500-00, for the Period from
                                 July 1, 2006, to December 31, 200


 5-306-08-019-R     04/25/08     Closeout Audit of the Project Titled “Business Advisory Services to Small         695         QC
                                 and Medium - Sized Enterprises (SMEs) in Afghanistan,” USAID/Afghanistan          653         UN
                                 Cooperative Agreement No. 306-A-00-04-00570-00, Managed by Acap
                                 Management Limited, for the Period from September 30, 2004, to March 29,
                                 2007

 5-306-08-006-P     06/23/08     Audit of USAID/Afghanistan’s Small and Medium Enterprise Development
                                 Activity

 5-306-08-009-P     08/08/08     Audit of USAID/Afghanistan’s Accelerating Sustainable Agriculture Program         167         QC

 5-306-08-012-P     09/30/08     Audit of USAID/Afghanistan’s Capacity Development Program                        11,100       BU

                                                               —IRAQ—
 E-267-08-009-D     04/15/08     Audit of Costs Incurred and Billed by BearingPoint, Inc. under Contract No.       36          QC
                                 267-C-00-04-00405-00 for the Period October 1, 2006 through September 30,         28          UN
                                 2007

 E-267-08-010-D     05/13/08     Audit of Costs Incurred and Billed by Agricultural Cooperative Development        39          QC
                                 International/Volunteers Overseas Cooperative Assistance (ACDI/VOCA)
                                 under Cooperative Agreement No. AFP-A-00-03-00003-00 from August 1, 2004
                                 to March 31, 2007

 E-267-08-011-D     05/20/08     Audit of Costs Incurred by Mercy Corps under USAID Cooperative                   4,750        QC
                                 Agreement No. AFP-A-00-03-00001-00 from August 1, 2004 through March 31,
                                 2007

 E-267-08-012-D     05/27/08     Audit of Costs Incurred and Billed by The Louis Berger Group, Inc. under
                                 Contract No. 267-C-00-04-00435-00 from October 1, 2006 through
                                 September 30, 2007

 E-267-08-013-D     07/06/08     Audit of the Subcontract Costs Submitted by Sallyport Global Services Ltd.
                                 (Sallyport) for Security Services and Life Support Services under USAID Prime
                                 Contract No. 267-C-00-04- 00435-00 with The Louis Berger Group, Inc. for the
                                 period October 1, 2006 through September 30, 2007

 E-267-08-014-D     08/12/08     Audit of Costs Incurred and Billed by International Relief and Development,       45          QC
                                 Inc. Under USAID Cooperative Agreement No. AFP-A-00-03-00002-00 for the           44          UN
                                 Period November 1, 2005 Through March 31, 2007

BU – Better Use of Funds • QC – Questioned Costs • UN – Unsupported Costs • Note: UN is part of QC


54 OFFICE OF INSPECTOR GENERAL SEMIANNUAL REPORT TO THE CONGRESS	                                                           Appendix A
                                                                                                            Amount
                                                                                                               of
    Report        Date of                                                                                   Findings     Type of
    Number        Report                                      Report Title                                  ($000s)      Findings

 E-267-08-002-P   04/03/08   Audit of USAID/Iraq’s Management of the Marla Ruzicka Iraqi War Victims Fund

 E-267-08-003-P   06/24/08   Audit of USAID/Iraq’s Management of Its Official Vehicle Fleet                   2,180         BU

 E-267-08-004-P   07/03/08   Audit of USAID/Iraq’s Monitoring and Evaluation Performance Program

 E-267-08-005-P   08/05/08   Audit of USAID/Iraq’s Community Action Program II

 E-267-08-006-P   09/30/08   Audit of USAID/Iraq’s Agribusiness Program                                       6,000         BU




USADF and IAF

                                                                                                            Amount
                                                                                                               of
    Report        Date of                                                                                   Findings     Type of
    Number        Report                                      Report Title                                  ($000s)      Findings

                                                  NOTHING TO REPORT
                                BU – Better Use of Funds • QC – Questioned Costs • UN – Unsupported Costs • Note: UN is part of QC




Appendix A	                                                                                         April 1 – September 30, 2008 55
AUDIT REPORTS OVER 6 MONTHS OLD WITH NO MANAGEMENT DECISION
As of September 30, 2008 USAID

                                                                                                                           Desired
                                                                                                                           Decision
    Report                      Issue                                   Current                                             Target
    Number          Auditee     Date                              Recommendation Status                                      Date

 1-527-08-003-P   USAID/Peru   03/25/08   To develop a rigorous basis for a management decision on the two                  12/09
                                          recommendations (Nos. 5 and 7) of this report, with questioned costs
                                          totaling $4.3 million, USAID/Peru has undertaken a financial review involving
                                          extensive field work in remote areas of Peru. The financial review will
                                          require several hundred hours of effort by USAID/Peru staff. More than half
                                          of the field work has been completed and USAID/Peru expects to complete
                                          the review by December 2009. The terms of reference for the financial
                                          review were vetted with OIG and several alternatives for speeding a
                                          management decision were considered. However, USAID/Peru believes, and
                                          OIG agrees, that the financial review is an indispensable part of a carefully
                                          considered and responsible approach to reaching a management decision on
                                          the recommendations.

 9-000-08-001-P   USAID        11/06/07   The Office of Security (SEC) is waiting for the approval of the Administrator    Unknown
                                          to publish the “Final Rule” in the Federal Register, which will allow the
                                          Agency to use its Partner Vetting System. The Administrator has not yet
                                          approved the Final Rule, which deals primarily with the use of Privacy
                                          Act information used in the vetting process. In the meantime, SEC is
                                          seeking Agency approval to implement a limited-scope vetting process in
                                          certain high-risk countries and programs. The Administrator has not given
                                          SEC approval to proceed with a limited implementation. Furthermore,
                                          if a decision is not reached by November 4, 2008, the entire issue will
                                          be delayed until sometime in 2009 because no new policies can be
                                          implemented between the Presidential election and the Inauguration.




USADF and IAF

                                                                                                                           Desired
                                                                                                                           Decision
    Report                      Issue                                   Current                                             Target
    Number          Auditee     Date                              Recommendation Status                                      Date

                                            NOTHING TO REPORT




56 OFFICE OF INSPECTOR GENERAL SEMIANNUAL REPORT TO THE CONGRESS	                                                         Appendix B
SIGNIFICANT AUDIT RECOMMENDATIONS DESCRIBED IN PREVIOUS SEMIANNUAL REPORTS
WITHOUT FINAL ACTION
As of September 30, 2008 USAID

                                                                                                                        Final
                                                                                                    Management         Action
    Report                                                                   Issue                   Decision          Target
    Number                         Subject of Report                         Date      Rec. No.        Date             Date

 9-000-06-003-P   USAID’s Reasonable Accommodation Policies and             12/13/05      3            12/13/05         12/08
                  Procedures

 A-000-06-001-P   USAID’s Information Technology Governance Over            02/21/06      2            02/21/06         10/08
                  Its Phoenix Overseas Deployment and Procurement                         3            02/21/06         10/08
                  System Improvement Program Projects                                     4            02/21/06         10/08
                                                                                          5            02/21/06         10/08
                                                                                          6            02/21/06         10/08

 4-615-06-011-P   USAID/Kenya’s Compliance with Financial Audit             07/31/06      5            10/13/06         10/08
                  Requirements Regarding Foreign Recipients                               7            07/31/06         10/08

 4-656-06-015-P   USAID/Mozambique’s Compliance with Financial Audit        09/22/06      4            09/22/06         03/09
                  Requirements Regarding Foreign Recipients

 0-000-07-001-C   USAID’s Financial Statements for Fiscal Years 2006 and    11/15/06     2.2           11/15/06         12/08
                  2005

 A-000-07-004-P   Audit of USAID’s Pre-Deployment Activities for Its        07/19/07      1            07/19/07         02/09
                  Global Acquisition System                                               2            07/19/07         02/09

 9-516-07-009-P   Audit of USAID’s Cuba Program                             09/25/07      1            10/26/07         10/08
                                                                                          9            09/25/07         10/08

 5-306-08-001-P   USAID/Afghanistan’s Agriculture, Rural Investment, and    01/22/08      5            01/22/08         12/08
                  Enterprise Strengthening Program                                        6            01/22/08         12/08

 5-306-08-003-P   USAID/Afghanistan’s Alternative Development               03/17/08      1            03/17/08         10/08
                  Program—Southern Region

 1-527-08-003-P   Follow-up Audit of USAID/Peru’s Alternative               03/25/08      1            07/02/08         12/08
                  Development Program                                                     5                             12/08
                                                                                          6                             12/08
                                                                                          7            07/02/08         12/08

 9-000-08-002-P   USAID’s New Partners Initiative Created Under the         12/12/07      3            12/12/07         11/08
                  President’s Emergency Plan for AIDS Relief

 A-000-08-004-P   USAID’s Implementation of Selected Homeland Security      02/06/08      1            02/06/08         06/09
                  Presidential Directive 12 (HSPD-12) Requirements for
                  Personal Identity Verification of Federal Employees and
                  Contractors




Appendix C	                                                                                       April 1 – September 30, 2008 57
USADF and IAF

                                                                                              Final
                                                                               Management    Action
    Report                                               Issue                  Decision     Target
    Number                 Subject of Report             Date       Rec. No.      Date        Date

                                        NOTHING TO REPORT




58 OFFICE OF INSPECTOR GENERAL SEMIANNUAL REPORT TO THE CONGRESS	                           Appendix C
REPORTS ISSUED WITH QUESTIONED AND UNSUPPORTED COSTS
April 1 – September 30, 2008 USAID

                                                                   Number
                                                                   of Audit
                         Reports                                   Reports              Questioned Costs                 Unsupported Costs1

 A. For which no management decision had been made as                40                    $22,868,1882,3                     $19,205,9743
 of April 1, 2008

 B. Add: Reports issued April 1 – September 30, 2008                 78                     $48,911,1844                      $31,443,0514

   Subtotal                                                          118                    $71,779,372                       $50,649,025

 C. Less: Reports with a management decision made                    835                    $44,582,7006                      $28,602,8506
 April 1 – September 30, 2008

   i. Value of Recommendations Disallowed by Agency                                         $25,862,596                       $19,191,932
   Officials

   ii. Value of Recommendations Allowed by Agency                                           $18,720,104                        $9,410,918
   Officials

 D. For which no management decision had been made as                33                     $27,196,6727                      $22,046,1757
 of September 30, 2008



 1 Unsupported Costs are included in Questioned Costs, but are                5 Unlike the monetary figures of this row, this figure is not being
 provided as additional information as required by the Inspector              subtracted from the subtotal. Some audit reports counted here are
 General Act Amendments of 1988 (P.L. 100-504).                               again counted in the figure below it.

 2 The ending balance at March 31, 2008, for Questioned Costs totaling        6 Amounts include $14,242,499 in Questioned Costs and $6,780,795
 $35,779,323 was decreased by $12,911,135 to reflect adjustments in           in Unsupported Costs for audits performed for OIG by other federal
 prior period recommendations.                                                audit agencies.

 3 Amounts include $1,895,920 in Questioned Costs and $14,116 in              7 Amounts include $3,577,241 in Questioned Costs and $1,228,655
 Unsupported Costs for audits performed for OIG by other federal              in Unsupported Costs for audits performed for OIG by other federal
 audit agencies.                                                              audit agencies.

 4 Amounts include $15,962,378 in Questioned Costs and $7,995,334
 in Unsupported Costs for audits performed for OIG by other federal
 audit agencies.




Appendix D	                                                                                                    April 1 – September 30, 2008 59
USADF

                                                                   Number
                                                                   of Audit
                           Reports                                 Reports              Questioned Costs                Unsupported Costs1

 A. For which no management decision had been made as                 0                          $0                               $0
 of April 1, 2008

 B. Add: Reports issued April 1 – September 30, 2008                  2                     $1,665,727                         $127,836

      Subtotal                                                        2                     $1,665,727                         $127,836

 C. Less: Reports with a management decision made                     22                    $1,176,422                         $127,836
 April 1 – September 30, 2008

      i. Value of Recommendations Disallowed by Agency                                      $1,176,422                         $127,836
      Officials

      ii. Value of Recommendations Allowed by Agency                                             $0                               $0
      Officials

 D. For which no management decision had been made as                 1                      $489,305                             $0
 of September 30, 2008


 1 Unsupported Costs are included in Questioned Costs, but are                2 Unlike the monetary figures of this row, this figure is not being
 provided as additional information as required by the Inspector              subtracted from the subtotal. One audit report counted here is again
 General Act Amendments of 1988 (P.L. 100-504).                               counted in the figure below it.




IAF

                                                                   Number
                                                                   of Audit
                           Reports                                 Reports              Questioned Costs                Unsupported Costs

                                                         NOTHING TO REPORT




60 OFFICE OF INSPECTOR GENERAL SEMIANNUAL REPORT TO THE CONGRESS	                                                                      Appendix D
REPORTS ISSUED WITH RECOMMENDATIONS THAT FUNDS BE PUT TO BETTER USE
April 1 – September 30, 2008 USAID

                                                                                       Number of
                                   Reports                                            Audit Reports                  Dollar Value

 A. For which no management decision had been made as of April 1, 2008                        1                       $8,541,076

 B. Add: Reports issued April 1 – September 30, 2008                                          5                      $162,199,796

   Subtotal                                                                                   6                      $170,740,872

 C. Less: Reports with a management decision made April 1, 2005 –                             6*                     $129,591,053
 September 30, 2008

   i. Value of Recommendations Agreed to by Agency Officials                                                          $20,478,989

   ii. Value of Recommendations Not Agreed to by Agency Officials                                                    $109,112,064

 D. For which no management decision had been made as of September 30, 2008                   1                       $41,149,819

                                             * Unlike the monetary figure of this row, this figure is not being subtracted from the subtotal.
                                                               Some audit reports counted here are again counted in the figure below it.




USADF and IAF

                                                                                       Number of
                                   Reports                                            Audit Reports                  Dollar Value

                                                   NOTHING TO REPORT




Appendix E	                                                                                                  April 1 – September 30, 2008 61
62 OFFICE OF INSPECTOR GENERAL SEMIANNUAL REPORT TO THE CONGRESS
SEMIANNUAL REPORT TO THE CONGRESS
               for
MILLENNIUM CHALLENGE CORPORATION




                            April 1 – September 30, 2008 63
64 OFFICE OF INSPECTOR GENERAL SEMIANNUAL REPORT TO THE CONGRESS
                         SUMMARY OF RESULTS

OIG’s purpose is to ensure that its assigned organizations    ■■   OIG provided 9 Fraud Awareness Briefings to over
enhance the integrity, efficiency, and effectiveness of            250 MCC and MCA staff members.
their work and achieve the greatest possible results. To
assist MCC in doing so, OIG evaluates the organization’s      ■■   A USAID contract employee was terminated for
programs and operations and provides oversight and                 soliciting kickbacks under an MCA Threshold
information. Using three strategic goals, shown below, as          Program contract.
a framework, OIG planned and executed work intended
to help MCC to address their challenges and priorities.       Strategic Goal 3: Continually improve OIG
                                                              functions and operations
Highlights of OIG’s results related to MCC for this
reporting period follow:                                      OIG continued to improve its information management
                                                              systems to help its employees perform more productively.
Strategic Goal 1: Strengthen the economy,                     ■■   OIG expanded the Audit Information Management
effectiveness, and efficiency of U.S. foreign                      System to include the tracking of MCC work.
assistance programs and operations
                                                              ■■   An automated helpdesk system was implemented to
OIG focused on audits that involved financial oversight            track requests for administrative services and other
of MCC compact funds.                                              support requirements.
■■   MCC implemented appropriate policies and                 OIG established an annual performance plan for this
     procedures for interagency agreements.                   reporting period that aligns with these goals and the
                                                              overall foreign assistance framework contained in the
■■   The fund accountability statement audit activity in an
                                                              National Security Strategy.
     MCC-funded program in Ghana found questioned
     costs of more than $2 million resulting from an          Additional details of OIG’s results related to MCC for
     accounting error.                                        this reporting are shown in the following charts and
                                                              activity summaries:
Strategic Goal 2: Protect U.S. foreign assistance
programs and operations from fraud, waste, and
abuse
OIG focused on investigations and training to address
vulnerabilities and integrity concerns that place
programs at risk.



                                                                                                April 1 – September 30, 2008 65
         Audits Conducted for MCC as of September 30, 2008

                                                                 NUMBER OF                 MONETARY
                         TYPE OF REPORT
                                                                  REPORTS             RECOMMENDATIONS ($)*

          FINANCIAL AUDITS

            PROGRAMS AND OPERATIONS                                      0                           0

            U.S.-BASED CONTRACTORS                                       0                           0

            U.S.-BASED GRANTEES                                          0                           0

                QUALITY CONTROL REVIEWS                                  0                           0

            FOREIGN GOVERNMENT ENTITIES                                 14                    2,343,480

                QUALITY CONTROL REVIEWS                                  1                           0

          PERFORMANCE AUDITS

            ECONOMY AND EFFICIENCY                                       2                           0

          OTHER                                                          0                           0

                              TOTAL                                     17                   2,343,480

                                      * Monetary recommendations include questioned costs and funds put to better use.




66 OFFICE OF INSPECTOR GENERAL SEMIANNUAL REPORT TO THE CONGRESS
Investigative Activity for MCC as of September 30, 2008

 WORKLOAD                                     CIVIL
  CASES OPENED                     2          REFERRALS                                       0
  CASES CLOSED                     0          DECLINATIONS                                    0
                                              COMPLAINTS                                      0
                                              JUDGMENTS / RECOVERIES                          0
                                              SETTLEMENTS                                     0
  CRIMINAL                                    ADMINISTRATIVE
  REFERRALS                        1          REPRIMANDS / DEMOTIONS                          0
  DECLINATIONS                     0          PERSONNEL SUSPENSIONS                           0
  ARRESTS                          0          RESIGNATIONS / TERMINATIONS                     1
  INDICTMENTS                      0          OTHER ADMINISTRATIVE ACTIONS                    0
  CONVICTIONS                      0          RECOVERIES                                      0
  SENTENCING                       0          PROCUREMENT
  FINES                            0          SUSPENSIONS / DEBARMENTS                        3
  RESTITUTIONS                     0          SAVINGS                                         1
                                              SYSTEMIC CHANGES                                0




Investigative Recoveries for MCC as of September 30, 2008

 JUDICIAL RECOVERIES                                                        0.00
 ADMINISTRATIVE RECOVERIES                                                  0.00
 SAVINGS                                                           $900,000.00

 TOTAL INVESTIGATIVE SAVINGS / RECOVERIES                         $900,000.00




                                                                                   April 1 – September 30, 2008 67
  Fraud Awareness Briefings Conducted for MCC as of September 30, 2008

     Month           Location             Sessions     Attendees      Professional Affiliation

              Cape Verde and Senegal         1            10          MCC and MCA Personnel
      APR
              Washington, DC                 1            101         MCC Personnel

      MAY                                         NOTHING TO REPORT

              San Salvador, El Salvador      1             2          MCC Personnel (MCA-Fomilenio)
      JUN
              Washington, DC                 1            43          MCC Personnel

      JUL                                         NOTHING TO REPORT

      AUG     Washington, DC                 1            45          MCC Personnel

      SEP     Tegucigalpa, Honduras          4            52          MCC Personnel

                       TOTAL                  9            253




68 OFFICE OF INSPECTOR GENERAL SEMIANNUAL REPORT TO THE CONGRESS
Strategic Goal 1:
Strengthen the economy, effectiveness, and efficiency
of U.S. foreign assistance programs and operations

Audit of MCC’s Management of Its Interagency               Fund Accountability Statement Audits
Agreements
                                                           Fund accountability statement audits are conducted by
The audit found that MCC had policies and procedures       the entity that is designated by the foreign country to
in place to provide a reasonable assurance that            implement the compact. The audits are performed by
interagency agreements were being managed to ensure        audit firms that OIG has approved. The audits include
that the Government was receiving the best value for its   three main objectives and a fourth that may or may
investment. Further, MCC had a policy and procedure        not be applicable in all compacts. The main objectives
related to the responsibilities of the contracting         are as follows:
officer’s technical representative assigned to oversee
                                                           ■■   Expressing an opinion on the fund accountability
each interagency agreement and to direct the work of
                                                                statement produced by the entity that oversees the
the servicing agency. Additionally, deliverables were
                                                                financial aspects of compact administration.
completed as required by the agreements.
                                                           ■■   Evaluating and obtaining an understanding of the
(Audit Report No. M-000-08-005-P)
                                                                entity’s internal control structure.

Audit of MCC’s Compliance with the FISMA                   ■■   Determining compliance with the compact terms
Provisions for Fiscal Year 2008                                 and applicable laws and regulations.

An audit was conducted to determine if MCC’s               ■■   Determining whether cost-sharing contributions
information security program meets FISMA                        were provided and accounted for in accordance
requirements for an agencywide information security             with the terms of the compact and supplemental
program to protect MCC’s information and assets.                agreements, where applicable.

OIG found that MCC’s information security program          The auditor’s opinion is a professional judgment on
does not meet all FISMA requirements, and OIG made         whether the fund accountability statement presents
17 recommendations to address the deficiencies. The        fairly, in all material respects, revenues, costs, and assets
FISMA audit for fiscal year 2009 will review MCC’s         for the audit period, in conformity with the terms
action in response to these recommendations.               of a Compact Agreement and related supplemental
                                                           agreements. The auditor applies generally accepted
(Audit Report No. M-000-08-004-P)                          accounting principles in performing the overall
                                                           assessment. All audit reports are reviewed by OIG.



                                                                                             April 1 – September 30, 2008 69
     Most audits cover 6-month periods of operations.           Benin
     The initial findings and recommendations of these          The latest audit covered incurred costs of $5,005,259
     audits are addressed to the local MCA. When                of the $307 million grant to address key constraints to
     audit findings require followup, OIG issues a              economic growth and poverty reduction in Benin by
     recommendation requesting a corrective action plan         supporting improvements in physical and institutional
     from MCC. The corrective action plan identifies            infrastructure in four critical sectors focusing on access
     the actions planned or taken to address the audit          to land, financial services, justice, and markets. The audit
     findings. Questioned costs are addressed in a separate     identified one significant deficiency in the internal control
     recommendation. MCC is required to notify the              structure, involving failure to submit certain quarterly
     OIG of its response to recommendations no later            reports by implementing agencies. In addition, the audit
     than 6 months from the date the audit is issued. Final     identified three instances of noncompliance from a
     action is within 1 year of audit issuance. To complete     previous audit period that had not been corrected. OIG
     this step, MCC reports its action to implement the         issued two recommendations and noted that a condition
     recommendation.                                            previously reported as corrected remained. Both
                                                                recommendations are pending management decision and
     During the reporting period, audits of incurred costs      final action.
     were issued for MCC-funded programs in Armenia,
     Benin, Cape Verde, El Salvador, Georgia, Ghana,            (Audit Report No. M-000-08-012-N)
     Honduras, Madagascar, Mali, Nicaragua, and Vanuatu.
                                                                Cape Verde
     Armenia:
                                                                The latest audit covered incurred costs of $1,863,047
     The latest audit covered incurred costs of $4.3 of         of the $110 million grant to reduce poverty and
     the $235.6 million compact to reduce rural poverty         stimulate economic growth by focusing on watershed
     through sustainable increase in the economic               management and agriculture support, infrastructure,
     performance of the agricultural sector. The audit          and private sector development. The audit identified
     identified one reportable condition in internal            four deficiencies in the internal control involving
     controls involving excessive cash balances. It also        value-added tax reimbursement, bank reconciliations,
     identified two instances of noncompliance. In the          government contribution report, and quarterly
     first instance, a bank failed to report accrued interest   reports. Further, the audit identified two instances of
     as required by the compact. In the second instance,        noncompliance involving property and equipment and
     MCA-Armenia did not make payments to the State             the tax refund process. All six findings were identified
     Social Security Fund as required by the Republic           in a previous report. As a result, OIG requested that
     of Armenia legislation. No new recommendations             MCC have Cape Verde correct the repeat findings and
     were issued; however, outstanding issues from report       verified that the actions have been taken.
     M-000-08-007-N dated April 11, 2008, were resolved
     and final action recorded.                                 (Audit Report Nos. M-000-08-008-N and
                                                                M-000-08-015-N)
     (Audit Report Nos. M-000-08-007-N and
     M-000-08-009-N)




70 OFFICE OF INSPECTOR GENERAL SEMIANNUAL REPORT TO THE CONGRESS
El Salvador                                                    questioned costs. All three recommendations are pending
                                                               management decision and final action.
The latest audit covered incurred costs of $1,453,483 of a
$461 million grant to alleviate the poverty of over 150,000    (Audit Report Nos. M-000-08-018-N and
Salvadorians and enhance the livelihood and welfare of         M-000-08-019-N)
over 850,000 people. The audit determined that the fund
statement presented fairly in all material respects. There     Honduras
were no findings of significant internal control weaknesses
or compliance. No recommendations were issued.                 The audit covered incurred costs of $6,872,771 of the
                                                               $215 million compact program to increase productivity
(Audit Report No. M-000-08-011-N)                              of small- and medium-size farms and improve farmers’
                                                               business skills and to reduce transportation costs
Georgia                                                        between farms and national, regional, and global
                                                               markets. The compact’s goal is to increase annual
The audit covered $11,183,420 in incurred costs of a           income for Honduras by $69 million. The Government
$295.3 million compact to rehabilitate key aspects of          of Honduras identified priorities for the compact from
regional infrastructure, including transportation, energy,     its national Poverty Reduction Strategy and engaged a
and municipal services. The audit identified one significant   broad range of citizens in designing the program. The
deficiency in the internal control system involving cash       audit disclosed no significant deficiencies in internal
projections and cash management. OIG made one                  control and no noncompliance. There were no audit
recommendation for a corrective action plan that resulted      recommendations issued for this audit.
in management decision and final action.
                                                               (Audit Report No. M-000-08-010-N)
(Audit Report No. M-000-08-013-N)

                                                               Madagascar
Ghana
                                                               The audit covered incurred costs of $8,955,374 of the
The audit covered incurred costs of $7,657,551of a             $110 million1 program to reduce poverty and stimulate
$547 million compact with three goals: to enhance              economic growth by focusing on three areas: property
the profitability of cultivation, services to agriculture,     rights, the financial sector, and agricultural business
and product handling in support of the expansion of            investment. The audit disclosed ineligible costs of
commercial agriculture among groups of smallholder             $40,350, unsupported costs of $57,012, and multiple
farmers; to reduce the transportation costs affecting          material instances of noncompliance. OIG issued two
the agricultural commerce at subregional and regional          recommendations one to request a corrective action plan
levels; and to strengthen the rural institutions that          for the nonmonetary findings and the other to resolve
provide services complementary to, and supportive of,          the $40,350 in ineligible and $57,012 in unsupported
agricultural and agribusiness development. The audit           questioned costs. Both recommendations are pending
disclosed questioned costs of $2,033,256, unsupported          management decision and final action.
costs of $209,678, two significant deficiencies in the
internal control structure, and multiple material instances    (Audit Report No. M-000-08-017-N)
of noncompliance. OIG issued three recommendations
to address the internal control, noncompliance, and            1  At the time of the audit, the compact was for a 4-year term. As of
                                                               September 30, 2009, the compact will be for a 5-year term. 



                                                                                                      April 1 – September 30, 2008 71
     Mali                                                        Vanuatu
     OIG issued the first audit of the MCA-Mali compact          The latest audit covered incurred costs of $510,545 of
     on September 29, 2008. The compact, a 5-year,               the $65 million program to achieve economic growth
     $460.8 million grant, was signed September 17, 2007.        and reduce poverty. The audit identified unsupported
     Specific projects are targeted in three general areas: an   questioned costs of $3,184 in uninsured assets. This is a
     airport improvement project, an industrial park within      material noncompliance with the compact that requires
     the airport, and an irrigation project to increase          all assets to be insured. Except for the questioned costs,
     agricultural productivity. The audit covered incurred       the fund accountability statement presented fairly,
     costs of $2,622,433 from November 13, 2006, to              in all material respects, program revenue and costs
     December 31, 2007. The OIG issued no                        incurred during the period under audit. There were
     recommendations, because a subsequent audit (yet to         no significant deficiencies in internal controls. OIG
     be issued) disclosed that all but one minor finding         issued a request for a corrective action plan to address
     have been resolved.                                         material noncompliance findings and a recommendation
                                                                 requesting resolution of the questioned costs. OIG
     (Audit Report No. M-000-08-020-N)                           issued two recommendations, which are pending
                                                                 management decision and final action.
     Nicaragua
                                                                 (Audit Report No. M-000-08-014-N)
     OIG issued its third audit of the compact with
     Nicaragua covering incurred costs of $7,508,481 of a
     $175 million program. The compact seeks to increase
     investment by strengthening property rights, reducing
     transportation costs, and improving access to markets
     for rural communities and increasing profits and wages
     from farming and related enterprises in the region.
     The fund accountability statement presented fairly, in
     all material respects, program revenue received and
     expenses incurred and reimbursed during the period
     under audit. The audit disclosed two significant internal
     control deficiencies that were outstanding at the close
     of the reporting period. OIG issued a request for a
     corrective action plan to address the internal control
     findings. MCC’s response is pending.

     (Audit Report No. M-000-08-016-N)




72 OFFICE OF INSPECTOR GENERAL SEMIANNUAL REPORT TO THE CONGRESS
Strategic Goal 2:
 rotect U.S. foreign assistance programs and
P
operations from fraud, waste, and abuse

Contract Employee Terminated for Soliciting                 OIG Conducts Fraud Awareness Training
Kickbacks and Procurement Cancelled
                                                            As part of its proactive strategy, OIG conducts fraud
An OIG investigation led to the termination of a            awareness training for MCC employees, contractors,
USAID contract employee for soliciting kickbacks            and grantees. The purpose of this training is to alert
under an MCA Threshold Program contract. The                personnel to fraudulent schemes and practices so that
MCA contract holder held a selection committee              they can prevent or reduce fraud in MCC programs and
meeting to evaluate bids received pursuant to a request     operations. In addition, OIG promotes its hotline and
for proposals for a $900,000 subcontract to provide         advises attendees of methods and procedures to report
hardware, networking, and refurbishment services to         potential fraud, waste, or abuse.
the host country ombudsman. The day of and the day
                                                            During this reporting period, fraud awareness training
prior to the evaluation, one of the vendors received
                                                            was provided in 4 countries to 253 MCC and MCA
e-mails soliciting a kickback of 5 percent of the pending
                                                            staff members.
contract price. During the investigation, an MCA
contract employee confessed that he had sent the e-mails
to the vendor. The investigation further determined
that the vendor entered into a kickback agreement;
however, the vendor did not pay any kickbacks. As a
result of the investigation, the MCA contract employee
was terminated, and the $900,000 procurement was
cancelled.




                                                                                           April 1 – September 30, 2008 73
     Strategic Goal 3:
     Continually improve OIG functions and operations


     Audit Information Management System Expanded                 OIG implemented a helpdesk program using a new,
                                                                  Web-based software system that is user-friendly and
     OIG initiated the Audit Information Management               adaptable to multiple management purposes. It creates
     System in early 2008 to track audit recommendations          and tracks requests made to administrative offices for
     and management decisions in USAID. It has since been         support in areas such as information technology and
     expanded to include MCC audit work. OIG designed             human resources, and it contains a knowledge base that
     and developed the system to create statutorily required      allows helpdesk staff to document common issues, post
     reports for Congress. The system improves efficiencies       forms, and provide information that users can access
     by giving users the benefit of real-time information and     easily.
     search capacity. It will also allow the future integration
     of audit and investigative databases.                        It can also be used to manage tasks and resources and
                                                                  customized, up-to-date reports, including statistical
     OIG Helpdesk                                                 tables, can be generated.

     Up-to-date infrastructure and management systems are
     essential to strengthening the efficiency, economy, and
     effectiveness of OIG’s programs and operations and
     protecting them from fraud, waste, and abuse. OIG
     continued to improve its information management
     systems to help OIG staff perform more productively
     and reduce risks to security and systems.




74 OFFICE OF INSPECTOR GENERAL SEMIANNUAL REPORT TO THE CONGRESS
APPENDIX II




              April 1 – September 30, 2008 75
Reporting Requirements for MCC
FINANCIAL AUDIT REPORTS ISSUED April 1 – September 30, 2008 MCC

                       Date of                                                                           Amount of   Type of
 Report Number         Report                                  Report Title                               Findings   Findings

                                           —FOREIGN GOVERNMENT ENTITIES—

 M-000-08-007-N        04/11/08     Audit of the MCC Resources Managed by Millennium Challenge Account
                                    - Armenia S.N.C.O. (MCA-Armenia), under the Compact Agreement
                                    Between the MCC and the Government of Armenia from September 1,
                                    2006 to June 30, 2007

 M-000-08-008-N        04/25/08     Audit of the MCC Resources Managed by Millennium Challenge Account
                                    - Cape Verde (MCA-Cape Verde), Under the Compact Agreement
                                    Between the MCC and the Government of Cape Verde from July 1, 2006
                                    to December 31, 2006

 M-000-08-009-N        05/28/08     Audit of the MCC Resources Managed by Millennium Challenge Account
                                    - Armenia S.N.C.O. (MCAArmenia), Under the Compact Agreement
                                    Between the MCC and the Government of Armenia from July 1, 2007 to
                                    December 31, 2007

 M-000-08-010-N        06/06/08     Audit of the MCC Resources Managed by Millennium Challenge Account
                                    - Honduras (MCA-Honduras), Under the Compact Agreement Between
                                    the MCC and the Government of Honduras from July 1, 2007 to
                                    December 31, 2007

 M-000-08-011-N        06/16/08     Audit of the MCC Resources Managed by MCA-El Salvador Under
                                    the Compact agreement between the MCC and the Government of El
                                    Salvador from July 1, 2007 to December 31, 2007

 M-000-08-012-N        06/23/08     Audit of the MCC Resources Managed by MCA-Benin Under the
                                    Compact Agreement Between the MCC and the Government of Benin
                                    from July 1, 2007 to December 31, 2007

 M-000-08-013-N        06/30/08     Audit of the MCC Resources Managed by the Millennium Challenge
                                    Georgia Fund (MG), Under the Compact Agreement Between the MCC
                                    and the Government of Georgia for the period from July 1, 2007 to
                                    December 31, 2007

 M-000-08-014-N        07/03/08     Audit of the MCC Resources Managed by the Millennium Challenge        $ 3,184      UN
                                    Account - Vanuatu (MCA-Vanuatu), Under the Compact Agreement
                                    Between the MCC and the Government of Vanuatu From January 1,
                                    2007 to June 30, 2007

 M-000-08-015-N        07/28/08     Audit of the MCC Resources Managed by Millennium Challenge Account
                                    - Cape Verde (MCA-Cape Verde), Under the Compact Agreement
                                    Between the MCC and the Government of Cape Verde from January 1,
                                    2007 to June 30, 2007

BU – Better Use of Funds • QC – Questioned Costs • UN – Unsupported Costs • Note: UN is part of QC




76 OFFICE OF INSPECTOR GENERAL SEMIANNUAL REPORT TO THE CONGRESS	
                                                        CONGRESS                                                     Appendix A
                   Date of                                                                           Amount of       Type of
  Report Number    Report                                Report Title                                 Findings       Findings

  M-000-08-016-N   07/28/08   Audit of the MCC Resources Managed by MCA-Nicaragua, Under
                              the Compact Agreement Between the MCC and the Government of
                              Nicaragua from July 1, 2007 to December 31, 2007

  M-000-08-017-N   07/28/08   Audit of the MCC Resources Managed by MCA-Madagascar, Under the         $ 40,350        Ineligible
                              Compact Agreement Between the MCC and the Government of the             $ 57,012           UN
                              Republic of Madagascar from July 1, 2007 to December 31, 2007

  M-000-08-018-N   08/08/08   Audit of the MCC Resources Managed by the Millennium Development
                              Authority (MiDA), Under the Compact Agreement Between the MCC
                              and the Government of Ghana from August 1, 2006 to December 31,
                              2006

  M-000-08-019-N   08/08/08   Audit of the MCC Resources Managed by the Millennium Development       $ 2,033,256      Ineligible
                              Authority (MiDA), Under the Compact Agreement Between the MCC           $ 209,678          UN
                              and the Government of Ghana from January 1, 2007 to December 31,
                              2007

  M-000-08-020-N   09/29/08   Audit of the MCC Resources Managed by Millennium Challenge
                              Account-Mali (MCA-Mali), Under the Compact Agreement Between the
                              MCC and the Government of the Republic of Mali from November 13,
                              2006 to December 31, 2007

                              BU – Better Use of Funds • QC – Questioned Costs • UN – Unsupported Costs • Note: UN is part of QC




Appendix A	                                                                                   April 1 – September 30, 2008 77
PERFORMANCE AUDIT REPORTS ISSUED April 1 – September 30, 2008 MCC

                  Date of                                                                          Amount of        Type of
 Report Number    Report                                 Report Title                               Findings        Findings

 M-000-08-004-P   09/26/08   Audit of the MCC Compliance with the Provisions of the Federal
                             Information Security Management Act for Fiscal Year 2008

 M-000-08-005-P   09/30/08   Audit of the MCC’s Management of Its Interagency Agreements




MISCELLANEOUS REPORTS ISSUED April 1 – September 30, 2008 MCC

                  Date of                                                                          Amount of        Type of
 Report Number    Report                                 Report Title                               Findings        Findings

                                     —QUALITY CONTROL REVIEW—

 QCR No. M-000-   05/22/08   Quality Control Review of “Audit of the MCC Resource Managed by
 08-001-Q                    MCA-Benin, Under the Compact Agreement Between MCC and the
                             Government of Benin from January 1, 2007 to June 30, 2007”




AFGHANISTAN AND IRAQ AUDIT REPORTS ISSUED April 1 – September 30, 2008 MCC

                  Date of                                                                          Amount of        Type of
 Report Number    Report                            Report Report Title                             Findings        Findings

                                          —NOTHING TO REPORT—
                              BU – Better Use of Funds • QC – Questioned Costs • UN – Unsupported Costs • Note: UN is part of QC




78 OFFICE OF INSPECTOR GENERAL SEMIANNUAL REPORT TO THE CONGRESS	                                                   Appendix A
AUDIT REPORTS OVER 6 MONTHS OLD WITH NO MANAGEMENT DECISION
As of September 30, 2008 MCC

                                                   Current                     Desired Decision
  Report Number   Auditee   Issue Date       Recommendation Status               Target Date

                                    —NOTHING TO REPORT—




Appendix B	                                                          April 1 – September 30, 2008 79
SIGNIFICANT AUDIT RECOMMENDATIONS DESCRIBED IN PREVIOUS SEMIANNUAL
REPORTS WITHOUT FINAL ACTION
As of September 30, 2008 MCC

                                                                                                        Final
                                                                                          Management   Action
    Report                                                                         Rec.    Decision    Target
    Number                       Subject of Report                    Issue Date   No.       Date       Date

 M-000-05-003-P   Audit of the Millennium Challenge Corporation’s      06/20/05    3*       09/28/07   02/09
                  Compliance with Provisions of the Federal
                  Information Security Management Act of 2002

 M-000-07-002-P   Audit of the MCC’s Management of its Conditions      07/26/07     1       07/26/07   11/08
                  Precedent in Its Compact Agreements

 M-000-07-004-P   Audit of the MCC’s Compliance with the               09/28/07     1       09/28/07   02/09
                  Provisions of the Federal Information Security
                  Management Act for Fiscal Year 2007

 M-000-08-001-C   Audit of the MCC’s Financial Statements, Internal    11/07/07     2       11/09/07   11/08
                  Controls, and Compliance for the Period Ending
                  September 30, 2007 and 2008

 M-000-08-001-P   Audit of the MCC Programs in Madagascar              12/28/07     1       03/05/08   12/08
                                                                                    2       12/28/07   12/08
                                                                                    3       12/28/07   12/08
                                                                                    4       12/28/07   12/08

 M-000-08-002-P   Audit of Compliance with Procurement                 03/03/08     1       03/03/08   03/09
                  Requirements by the MCC and Its Compact                           2       03/03/08   03/09
                  Countries                                                         3       03/03/08   03/09
                                                                                    4       03/03/08   03/09
                                                                                    5       03/03/08   03/09




80 OFFICE OF INSPECTOR GENERAL SEMIANNUAL REPORT TO THE CONGRESS	                                      Appendix C
REPORTS ISSUED WITH QUESTIONED AND UNSUPPORTED COSTS
April 1 – September 30, 2008 MCC

                                                                                Number of               Questioned           Unsupported
                                 Reports                                       Audit Reports              Costs                 Costs*

  A. For which no management decision had been made as of April 1, 2008                0                     $0                    $0

  B. Add: Reports issued April 1 – September 30, 2008                                  3                 $2,343,480             $269,874

    Subtotal                                                                           3                 $2,343,480             $269,874

  C. Less: Reports with a management decision made April 1 –                           0                     $0                    $0
  September 30, 2008

    i. Value of Recommendations Disallowed by Agency Officials                                               $0                    $0

    ii. Value of Recommendations Allowed by Agency Officials                                                 $0                    $0

  D. For which no management decision had been made as of                              3                 $2,343,480             $269,874
  September 30, 2008

                                               * Unsupported Costs are included in Questioned Costs, but are provided as additional information
                                                                  as required by the Inspector General Act Amendments of 1988 (P.L. 100-504).




Appendix D	                                                                                               April 1 – September 30, 2008 81
REPORTS ISSUED WITH RECOMMENDATIONS THAT FUNDS BE PUT TO BETTER USE
April 1 – September 30, 2008 MCC

                                                              Number of Audit
                          Reports                                Reports        Dollar Value

                                    —NOTHING TO REPORT—




82 OFFICE OF INSPECTOR GENERAL SEMIANNUAL REPORT TO THE CONGRESS	                      Appendix E
          U.S. Agency for International Development
                  Office of Inspector General
                  1300 Pennsylvania Avenue, NW
                           Room 6.6D
                      Washington, DC 20523

                        www.usaid.gov/oig




The Semiannual Report to the Congress is available on the Internet at
        www.usaid.gov/oig/public/semiann/semiannual1.htm
